Independent Auditor’s Report on USAID’s
Financial Statements for Fiscal Years
2004 and 2003
Audit Report No. 0-000-05-001-C
November 15, 2004




                    Washington, DC
November 15, 2004


MEMORANDUM
TO:           CFO/FM, Lisa D. Fiely

FROM:         AIG/A, Bruce N. Crandlemire

SUBJECT:      Independent Auditor’s Report on USAID’s Financial Statements for Fiscal
              Years 2004 and 2003 (Report No. 0-000-05-001-C)

The Office of Inspector General (OIG) is transmitting its Independent Auditor’s Report on
USAID’s Financial Statements for Fiscal Years 2004 and 2003. Under the Government
Management Reform Act of 1994, USAID is required to prepare consolidated fiscal year-
end financial statements. For FY 2004, USAID is required to submit the audited
financial statements to the Office of Management and Budget (OMB) and the U.S.
Department of the Treasury (Treasury) by November 15, 2004.

The Office of Inspector General has issued unqualified opinions on all five of USAID’s
principal financial statements for fiscal year 2004.

With respect to internal control, our report discusses one material internal control
weakness and six reportable conditions identified during the audit. The material internal
control weakness is related to USAID’s process for reviewing and reporting on its
quarterly accrued expenditures and accounts payable (See page 10). The reportable
conditions address USAID’s need to (1) improve its certification process for mapping
strategic objectives to performance goals; (2) reconcile its Fund Balance with the U.S.
Treasury; (3) improve recognition and reporting over its accounts receivable; (4) perform
regular intragovernmental reconciliations; (5) analyze and deobligate unliquidated
obligations; and (6) improve its system for preparing its Management’s Discussion and
Analysis.

This report contains five recommendations to improve USAID’s internal control over
financial management, the preparation of its annual financial statements, and its
compliance with laws and regulations.
We have received and considered your response to our findings and recommendations in
the draft audit report (see page 29). Based on your response, we have accepted your
comments as management decisions. Please forward information related to the resolution
of these findings to the Office of Management, Planning, and Innovation for acceptance
and final action (see Appendix II for USAID’s Management Comments).

We appreciate the cooperation and courtesies that your staff extended to the OIG during
the audit. The Office of Inspector General is looking forward to working with you on our
audit of the fiscal year 2005 financial statements.




                                                                                           2
Table of   Summary of Results                                                 5
Contents
           Background                                                         6

           Audit Objective                                                    6

           Did USAID’s principal financial statements present fairly
           the assets, liabilities, net position, net costs, changes in net
           position, budgetary resources, and reconciliation of net
           costs to budgetary resources for fiscal years 2004 and
           2003?

                   Independent Auditor’s Report on USAID’s
                   Financial Statements                                       7

                   Independent Auditor’s Report on Internal
                   Control                                                    9

                   Independent Auditor’s Report on Compliance
                   With Laws and Regulations                                  23

                   Evaluation of Management Comments                          29

                   Appendix I - Scope and Methodology                         31

                   Appendix II – USAID Management Comments                    33

                   Appendix III - Status of Uncorrected Findings and
                         Recommendations from Prior Audits That
                         Affect the Current Audit Objectives                  37

                   Appendix IV – USAID FY 2004:

                           Financial Highlights                               39

                           Financial Statements                               44

                           Footnotes to the Financial Statements              54

                           Required Supplementary Information                 100




                                                                              3
This page intentionally left blank




                                     4
Summary of   In our opinion, USAID’s consolidated balance sheet, consolidated statement of
Results      changes in net position, consolidated statement of net cost, combined statement
             of budgetary resources, and consolidated statement of financing present fairly, in
             all material respects, the financial position of USAID as of September 30, 2004
             and 2003, and its net cost, net position, and budgetary resources for the years
             then ended in conformity with generally accepted accounting principles (see page
             7).

             Our audit identified one material internal control weakness and six reportable
             internal control conditions (see page 9).

             The material internal control weakness is identified as follows:

                •   USAID’s process for reviewing and reporting its quarterly accrued
                    expenditures and accounts payable needs improvement.

             The reportable conditions relate to USAID’s need to improve its:

                1. Certification process for mapping its strategic objectives to its
                   performance goals
                2. Reconciliation of its Fund Balance with the U.S. Treasury
                3. Process for recognizing and reporting its accounts receivable
                4. Intragovernmental reconciliation process
                5. Process for deobligating unliquidated obligations
                6. System for preparing its Management’s Discussion & Analysis

             Our audit identified reportable noncompliance related to requirements of the
             Federal Financial Management Improvement Act, as follows:

                •   USAID’s new core financial system is not deployed
                •   Funds control
                •   The U.S. Standard General Ledger at the transaction level

             The other reportable instance of noncompliance identified in our audits relates to
             USAID’s compliance with Section 620(q) and the Brooke Amendment of the
             Foreign Assistance Act of 1961.




                                                                                   5
                  The United States Agency for International Development (USAID) was
Background        created in 1961 to advance the United States’ foreign policy interests by
                  promoting broad-based sustainable development and providing humanitarian
                  assistance. USAID has an overseas presence in over 80 countries, 36 of which
                  have operational accounting stations. In fiscal year 2004, USAID had total
                  obligation authority of about $14.2 billion.

                  Under the Government Management Reform Act of 1994, USAID is required
                  to annually submit audited financial statements to the Office of Management
                  and Budget (OMB) and the U.S. Treasury. Pursuant to this Act, for FY 2004,
                  USAID has prepared the following:

                  •   Consolidated Balance Sheet,
                  •   Consolidated Statement of Changes in Net Position,
                  •   Consolidated Statement of Net Cost,
                  •   Combined Statement of Budgetary Resources,
                  •   Consolidated Statement of Financing,
                  •   Notes to the principal financial statements,
                  •   Other Required Supplementary Information, and
                  •   Management’s Discussion and Analysis.


Audit Objective   Did USAID’s principal financial statements present fairly the assets,
                  liabilities, net position, net costs, changes in net position, budgetary
                  resources, and reconciliation of net costs to budgetary resources for fiscal
                  years 2004 and 2003?

                  In our opinion, the financial statements referred to above present fairly, in all
                  material respects, in conformity with generally accepted accounting principles,
                  USAID’s assets, liabilities, and net position; net costs; changes in net position;
                  budgetary resources; and reconciliation of nets costs to budgetary resources as of
                  September 30, 2004 and 2003 and for the years then ended.

                  In accordance with Government Auditing Standards, we have also issued our
                  reports (dated November 15, 2004) on our consideration of USAID’s internal
                  control over financial reporting and on our tests of USAID’s compliance with
                  certain provisions of laws and regulations. These reports are an integral part of
                  an overall audit conducted in accordance with Government Auditing Standards
                  and should be read in conjunction with this report.




                                                                                              6
                        Independent Auditor’s Report on USAID’s
                                Financial Statements

Auditor’s   We have audited the accompanying consolidated balance sheets of USAID as of
Opinion     September 30, 2004 and 2003, and the consolidated statements of changes in net
            position, consolidated statements of net cost, combined statements of budgetary
            resources, and consolidated statements of financing of USAID for the years
            ended September 30, 2004 and 2003.

            We conducted our audits in accordance with auditing standards generally
            accepted in the United States, Government Auditing Standards issued by the
            Comptroller General of the United States and the Office of Management and
            Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
            Statements. Those standards require that we plan and perform the audit to
            obtain reasonable assurance that the financial statements are free of material
            misstatement. An audit includes examining, on a test basis, evidence
            supporting the amounts and disclosures in the financial statements. An audit
            also includes assessing the accounting principles used and the significant
            estimates made by management, as well as evaluating the overall financial
            statement presentation. We believe that our audits provide a reasonable basis
            for our opinion.

            In our opinion, the financial statements referred to above present fairly, in all
            material respects, in conformity with generally accepted accounting principles,
            USAID’s assets, liabilities, and net position; net costs; changes in net position;
            budgetary resources; and reconciliation of net costs to budgetary resources as of
            September 30, 2004 and 2003 and for the years then ended.

            Management’s Discussion and Analysis, Required Supplementary Information,
            and other accompanying information contain a wide range of data, some of
            which are not directly related to the financial statements. We do not express an
            opinion on this information. However, we compared this information for
            consistency with the financial statements and discussed the methods of
            measurement and presentation with USAID officials. Based on this limited
            work, we found no material inconsistencies with the financial statements or
            nonconformance with OMB guidance.




                                                                                  7
In accordance with Government Auditing Standards, we have also issued our
reports, dated November 15, 2004 on our consideration of USAID’s internal
control over financial reporting and on our tests of USAID’s compliance with
certain provisions of laws and regulations. These reports are an integral part of
an overall audit conducted in accordance with Government Auditing Standards
and should be read in conjunction with this report.




USAID, Office of Inspector General
November 15, 2004




                                                                           8
                   Independent Auditor’s Report on Internal Control

Report on   We have audited the consolidated balance sheet of USAID as of September 30,
            2004 and 2003. We have also audited the consolidated statement of changes in
Internal    net position, consolidated statement of net cost, combined statement of budgetary
Control     resources, and consolidated statement of financing for the fiscal years ended
            September 30, 2004 and 2003, and have issued our report thereon dated
            November 15, 2004. We conducted the audits in accordance with generally
            accepted auditing standards; Government Auditing Standards, issued by the
            Comptroller General of the United States; and Office of Management and Budget
            (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial
            Statements.

            In planning and performing our audits of USAID’s financial statements for the
            fiscal years ended September 30, 2004 and 2003, we considered its internal
            control over financial reporting by obtaining an understanding of the agency’s
            internal control, determined whether internal controls had been placed in
            operation, assessed control risk, and performed tests of controls in order to
            determine our auditing procedures for the purpose of expressing our opinion on
            the financial statements. We limited our system of internal control testing to
            those controls necessary to achieve the objectives described in OMB Bulletin 01-
            02. We did not test all internal controls relevant to operating objectives as
            broadly defined by the Federal Managers’ Financial Integrity Act of 1982, such
            as those controls relevant to ensuring efficient operations. The objective of our
            audit was not to provide assurance on internal control. Consequently, we do not
            provide an opinion on internal control.

            Our consideration of internal control over financial reporting would not
            necessarily disclose all matters in internal control over financial reporting that
            might be reportable conditions. Under standards established by the American
            Institute of Certified Public Accountants, reportable conditions are matters
            coming to our attention relating to significant deficiencies in the design or
            operation of internal control that, in our judgment, could adversely affect the
            agency’s ability to record, process, summarize, and report financial data
            consistent with the assertions by management in the financial statements.
            Material weaknesses are reportable conditions in which the design or operation
            of one or more of the internal control components does not reduce to a relatively
            low level the risk that misstatements in amounts that would be material in
            relation to the financial statements being audited may occur and not be detected
            within a timely period by employees in the normal course of performing their
            assigned functions. Because of inherent limitations in internal control,
            misstatements, losses, or noncompliance may occur and not be detected. Our
            consideration of internal control over financial reporting would not necessarily
            disclose all reportable conditions that are also considered to be material
            weaknesses as defined above. However, we noted certain matters (discussed in


                                                                                  9
the following paragraphs) involving internal control and its operation that we
consider to be reportable conditions, and one matter that we consider to be a
material weakness.

The material weakness relates to USAID’s need to improve its process for
reviewing and reporting its quarterly accrued expenditures and accounts payable.

The reportable conditions relate to USAID’s need to improve its:

   1. Certification process for mapping its strategic objectives to its
      performance goals.
   2. Reconciliation of its Fund Balance with the U.S. Treasury.
   3. Process for recognizing and reporting its accounts receivable.
   4. Intragovernmental reconciliation process.
   5. Process for deobligating unliquidated obligations.
   6. System for preparing its Management’s Discussion & Analysis.

We also noted other matters involving the internal control over financial
reporting, which we reported to USAID management in a separate letter dated
November 15, 2004.

With respect to internal control related to performance measures reported in
USAID’s Performance and Accountability Report, we obtained an understanding
of the design of significant internal controls relating to the existence and
completeness assertions, as required by OMB Bulletin 01-02. Our procedures
were not designed to provide assurance on internal control over reported
performance measures, and, accordingly, we do not provide an opinion on such
controls.

Material Weakness

USAID’s Process for Reviewing and Reporting Its Quarterly Accrued
Expenditures and Accounts Payable Needs Improvement

In our testing of USAID’s accrued expenditures at selected overseas missions
and bureaus in Washington, DC, the OIG determined that existing controls
over the accruals process needed improvement.             USAID’s accrued
expenditures and accounts payable recorded in the core accounting system
were less accurate because of deficiencies and unresolved training needs of
USAID’s Certifying Technical Officers. The OIG proposed, and USAID
made, $254 million of adjustments to more accurately present accrued
expenditures and accounts payable reported on USAID’s financial statements.

According to USAID’s Automated Directives System (ADS) 631, financial
documentation represents any documentation that impacts on or results in
financial activity. It is not limited to documentation within the financial


                                                                          10
management operations but includes any source material resulting in a
financial transaction. Contracting Technical Officers (CTOs), Loan Officers,
Grants Officers, Strategic Objective teams, and others are responsible for
retaining financial documentation and ensuring its availability for audit. ADS
631 also states that the Obligation Manager must gather cost data—such as
supporting project documentation, activity reports, delivery reports, or fixed
reoccurring expenses—for the accruals exercise and then compare the data to
payment histories and advances to estimate quarterly accruals.

The OIG found that USAID’s amounts accrued via accrual worksheets at
overseas missions and in Washington, DC lacked sufficient documentation to
support accrual estimates and that such documentation could often not be
produced subsequent to the recording of the estimates. We also found many
accrual    documentation      errors,   including    incorrect    calculations,
misinterpretation of grantee information, and incorrect comparisons of
estimated expenditure reports. In addition, we noted that USAID program
managers did not have the training necessary to adequately estimate accruals.

At USAID, accrued expenditures are accounting estimates of services or goods
rendered which have not been paid by USAID. In conducting quarterly
accrual estimates, USAID relied on the efforts of CTOs at overseas missions
and in Washington, DC. During FY 2004, these efforts were limited by the
inability of USAID’s overseas Mission Accounting Control System (MACS)
to monitor various funding sources of the same project or program. Project
managers and financial analysts had not documented their calculations or
correspondence from grantees, their analysis of expenditure rates, or their
review of accounting reports. Financial analysts estimating accruals also
indicated that some accruals for completed projects are reported the same way
for several quarters because missions have either not received disbursement
data from USAID/Washington or because mission or Washington-based
analysts have not received final vouchers indicating project completion.

USAID has taken action to address this situation. In previous years, simply
identifying an individual responsible for providing accrual estimates was
difficult. In response to an OIG recommendation made in FY 2004, USAID
has worked with the contractor maintaining its core accounting system to
improve the quality of this information. As a result of this work, the OIG can
more easily locate USAID managers responsible for maintaining accrual
estimates.

USAID has implemented OIG recommendations that have improved the
overall process. Nevertheless, USAID’s reported accounts payable and
accrued expenditures are still vulnerable to material error, and annual pipeline
information used at various levels of USAID management may be unreliable
as long as CTOs are not trained to adequately perform quarterly accruals. In
prior years, existing controls over the accruals process have been ineffective


                                                                    11
and resulted in incomplete or inadequate written supporting documentation for
many accrual transactions. To address this condition, the OIG is making the
following recommendation.

       Recommendation No 1: We recommend that USAID’s Chief
       Financial Officer, in coordination with USAID’s Office of Human
       Resources, update USAID’s Cognizant Technical Officer training
       course and Financial Management Overview training course to
       include sessions on developing and supporting quarterly accrual
       estimates. The training should include information on supporting
       documentation and on developing estimates in the absence of
       timely disbursement data necessary to develop accurate accruals.

Reportable Conditions

Certification Process for Mapping Strategic Objectives to Performance
Goals Needs Improvement (Previously Reported as a Material Weakness)

USAID’s Bureau for Policy and Program Coordination (PPC) needs to improve
the certification process for mapping its strategic objectives (SOs) to agency
performance goals. While USAID has implemented OIG recommendations in
improving PPC’s system for certifying strategic objective to performance goals,
we identified problems that continue to affect USAID’s ability to obtain
certifications on a timely and consistent basis. These problems occurred because
USAID’s process for obtaining certifications was not always followed
consistently or in a timely manner and because PPC’s Annual Reports Database
was incomplete. As a consequence, the existing certification process may result
in inaccurate information being reported on USAID’s Statement of Net Cost.

In response to an FY 2003 OIG audit recommendation, PPC instructed USAID
operating units to certify that individual strategic objectives expending funds in
FY 2004 were correctly assigned to one of its 34 separate performance goals. In
January 2004, PPC forwarded two tables to USAID operating units—one
identifying strategic objectives linked to performance goals and the other with
unlinked strategic objectives—and instructed USAID operating units to certify
the accuracy of strategic objectives assigned to USAID’s performance goals by
April 30, 2004. This information was developed from PPC’s Annual Reports

Database (ARD), which contains all USAID strategic objectives active when the
ARD was first created. PPC received all of the certifications from USAID’s
operating units, with certifying officers’ statements and signatures, by May 14,
2004.

In June 2004, however, we determined that several strategic objectives which
were either not contained in the ARD or were considered inactive by the
certifying official at the time of the certification were not captured in the


                                                                            12
certifications from mission directors. Many inactive strategic objectives which
still had significant expenditure activity were not considered in PPC’s initial
request. Upon this discovery, PPC worked with USAID’s Office of Financial
Management and the bureau program offices to ensure that these strategic
objectives were appropriately linked to agency performance goals (i.e. second
round). Had these strategic objectives remained unassigned, USAID would have
reported improperly allocated costs in its FY 2004 Statement of Net Cost.

PPC did not require individual certifications for the second round of validating
strategic objectives of agency goal linkages. Instead, it accepted email
correspondence from the operating units for these previously unassigned strategic
objectives as evidence that these were legitimate changes made by an appropriate
official. When the final table showing the attributions made during the second
round was finished, PPC required the head of each bureau’s program office to
sign the table with the words, “I am satisfied with the way the listed SOs are
attributed to Agency goals.” If PPC does not implement a certification policy
consistently throughout all USAID operating units, the overall quality of these
certifications will be compromised.

Statement of Federal Financial Accounting Standard (SFFAS) No. 4 requires
federal agencies to accumulate and report the costs of its activities on a regular
and consistent basis for management information purposes. SFFAS No. 4
states that reliable information on the costs of federal programs and activities
is crucial for effective management of government operations.                 The
information supplied to internal and external users should be reliable and
useful in making evaluations or decisions.

       Recommendation No 2: We recommend that the USAID Chief
       Financial Officer, in coordination with the Assistant Administrator
       of the Policy and Program Coordination Division:

       2.1     Ensure that annual certifications of strategic objectives to
               agency goals, which are made when information from the
               Annual Reports Database are finalized, are conducted
               consistently by all USAID operating units.

       2.2     Include all active strategic objectives expending funds in the
               Annual Reports Database.

USAID’s Process for Reconciling Its Fund Balance with the U.S. Treasury
Needs Improvement (Repeat Finding)

Because of the significance of the unsupported year-end adjustments, the OIG
determined that USAID’s approach and internal controls over its fund balance
reconciliation process need enhancement. USAID did not develop written
narratives on unreconciled conditions of its fund balance accounts


                                                                      13
documenting the reasons for making year-end adjustments to resolve $392
million of differences between its balances and the pre-closing balances
reported on the year-end closing statement provided by the U.S. Treasury’s
Financial Management Service (FMS). While preparing the year-end closing
statement, USAID made adjustments of $95 million net ($392 million in
absolute value) to bring its balances in agreement with the U.S. Treasury on
the year-end closing statement and annual financial statement. This is
compared to the $35 million net amount ($201 million in absolute dollar value)
that was reported in FY 2003.

The U.S. Department of Treasury’s guidance for reconciling fund balances
requires that federal agencies research and resolve differences reported by the
U.S. Treasury on a monthly basis. Agencies must also resolve all differences
between the balances reported in their general ledger fund balance with the
U.S. Treasury accounts and the balances reported by the U.S. Treasury. This
guidance stipulates three months as a reasonable period for clearing the
differences. U.S. Treasury reconciliation procedures state that an agency may
not arbitrarily adjust its fund balance with the U.S. Treasury account. The
procedures further state that an agency can adjust its fund balance with the
U.S. Treasury account balance only after clearly establishing the causes for
any errors and properly correcting those errors. In addition, the procedures
state that an agency should document “month cleared” (the accounting month
that the discrepancy was adjusted), accounting periods, required explanations,
and brief narratives that disclose the cause of the discrepancy.

According to GAO’s Standards for Internal Control in Federal Government,
deficiencies found during ongoing monitoring should be communicated to the
individual responsible for the particular function and also to at least one level of
management above that individual. Serious matters should be reported to top
management. This directive states that federal program managers should
continually seek ways to improve accountability and to minimize and improve
operational problems. USAID federal managers must seek, identify and report
specific operational problems that should be disclosed based on the review of
USAID’s monthly fund balance reconciliations.

The OIG identified several problems that continue to limit USAID’s ability to
reconcile and correct differences between its reported fund balances and the
control balances reported by the FMS. Specifically, USAID did not regularly
document the conditions resulting in unreconciled conditions. USAID spent
considerable time resolving timing differences associated with unreconciled
amounts but was not able to implement procedures to quickly research and
resolve other types of reconciling items. Also, authorized USAID officials did
not review, certify, or sign monthly reconciliation documents, in accordance
with TFM 5100. The OIG determined that because of these problems, it was
not clear whether USAID clearly established and reported the conditions to the
USAID managers for the function and whether USAID properly corrected


                                                                              14
reconciling items and unreconciled conditions of the fund balance accounts.
Moreover, USAID’s overseas missions continue to have large unreconciled
balances because they have not been able to implement procedures to reconcile
items quickly and because accounting stations responsible for several client
missions do not consistently receive documentation to support unreconciled
transactions. As a result, USAID had to make an adjustment to reconcile its
Fund Balance with the U.S. Treasury.

This condition does not have a material impact on the Fund Balance with
Treasury line item reported on USAID’s FY 2004 Balance Sheet; Note 2,
Fund Balances with Treasury, or on amounts reported as unobligated balances
on USAID’s Schedule of Budgetary Resources by Major Appropriation for the
year ended September 30, 2004.

In FY 2003, USAID implemented a new reporting system that has been used
to determine its missions’ reconciling items at the end of each accounting
period. We determined that this new system was designed to track all
reconciling items that existed between USAID’s overseas mission records and
FMS records, and allowed USAID access to information on these differences.

We identified similar reconciliation conditions in a previous audit report and
made recommendations for corrective action by USAID management. As of
September 30, 2004, in a cash reconciliation directive for USAID’s overseas
missions, USAID had taken action to implement those recommendations by
identifying common problems that cause timing differences and other
unreconciled conditions, and ways to avoid common problems. The
information in USAID’s cash reconciliation procedures referenced the U.S.
Treasury's guidance (Fund Balance with Treasury Reconciliation Procedures)
for identifying common errors or problems.

Because USAID is currently developing procedures to respond to a previous
recommendation, we are not making a new recommendation to address the
unreconciled condition between USAID’s overseas missions and the
Department of Treasury. We will review these procedures during the FY 2005
financial statement audit. However, because USAID/Washington continues to
record unsupported and undocumented adjustments to its year-end fund
balance to bring this account into agreement with the U.S. Treasury, we are
including the following recommendation to USAID management:

       Recommendation No. 3: We recommend that USAID’s Chief
       Financial Officer require USAID’s Office of Financial Management
       to develop and implement specific written desk procedures requiring
       documenting and reporting processes for the narratives of (1)
       conditions of reconciling items and (2) unreconciled conditions of
       fund balance accounts for the reconciliation of the Fund Balance



                                                                   15
                                  with Treasury, that incorporate and enhance existing USAID and
                                  federal guidance.

                         USAID’s Process for Recognizing and Reporting Its Accounts Receivable
                         Needs Improvement (Repeat Finding Previously Reported as a Material
                         Weakness)

                         USAID’s process for receivables due to USAID needs improvement in ensuring
                         that all receivables are accounted for and validated in the amount reported for
                         accounts receivable in its financial statements. Currently, USAID records
                         receivables after its missions and the Office of Acquisition and Assistance
                         (OAA) notify OFM that employees, vendors, contractors, and grantees owe funds
                         to USAID. Overall, USAID still does not have an integrated system for ensuring
                         that its accounts receivable are complete, and no single person in USAID is
                         solely responsible for ensuring that USAID accounts receivable are accurate for
                         interim and year-end financial reporting.

                         SFFAS No. 1, paragraph 40 to 52, Accounts Receivable, requires the recognition
                         (recording) of accounts receivable when a claim to cash or other assets has been
                         established. The establishment of accounts receivable cannot occur on a timely
                         basis unless there are adequate procedures in place for recognizing and reporting
                         them at the end of each accounting period. Such a system does not exist at
                         USAID for its overseas locations.

                         The OIG determined that USAID had inadequate supervisory controls for
                         ensuring that USAID officials completely determined and reported all validated
                         receivables to the USAID Office of Financial Management. Approximately $5
                         million of USAID’s accounts receivable that have been outstanding for two years
                         or more were not validated as of September 30, 2004.

                         Since it has not fully implemented policies and procedures for its overseas
                         missions and its Office of Acquisition and Assistance to immediately recognize
                         accounts receivable, USAID had to rely on its web-based data collection tool to
                         determine the year-end accounts receivable balances for its overseas missions.
                         USAID continues to lack an integrated financial management system with the
                         ability to recognize and account for its worldwide accounts receivable. This
                         internal control weakness was reported in a previous audit report1 and USAID is
                         still in the process of integrating its financial management systems. Because this
                         systemic weakness continues to exist, we have included it as a reportable
                         condition in this report. However, we are not including an additional
                         recommendation to address the condition. We will continue to monitor USAID’s
                         progress in implementing the OIG’s previously recommended corrective actions.

1
         Independent Auditor’s Report on USAID’s Consolidated Financial Statements, Internal Controls and Compliance
for Fiscal Years 2003 and 2002. Report No. 0-000-04-001-C, dated November 14, 2003.




                                                                                                             16
                           USAID’s Intragovernmental Reconciliation Process Needs Improvement

                           USAID did not reconcile its significant intragovernmental activities and
                           balances with its federal trading partners throughout fiscal year 2004. The
                           U.S. Department of Treasury’s Financial Management Service (FMS) reported
                           $14.6 billion in intragovernmental balances at USAID in its 4th quarter
                           Intragovernmental Summary Report. However, the summary report identified
                           $10.4 billion of differences between transactions reported by USAID and those
                           reported by USAID’s federal trading partners. These differences were
                           reported by FMS in several reports, including the Material Differences/Status
                           of Disposition Certification (MD/SD) Report identifying differences by federal
                           trading partner and differences in reported intragovernmental activity by
                           reciprocal category.2 Although USAID reconciled material differences
                           identified by FMS in its quarterly MD/SD Report in accordance with Treasury
                           Financial Manual (TFM) Bulletin No. 2004-04, it did not consistently
                           reconcile other significant differences by reciprocal category with its federal
                           trading partners throughout FY 2004.

                           Section 11.3 of OMB Bulletin 01-09 requires federal agencies to perform
                           quarterly reconciliations of intragovernmental transactions beginning in fiscal
                           year 2003. These reconciliations are to be conducted in accordance with the
                           FMS Federal Intragovernmental Transactions Accounting Policies Guide.
                           Beginning in the quarter ending March 31, 2004, FMS implemented its
                           Intragovernmental Management Control Plan to address a material weakness
                           cited by the Government Accountability Office (GAO) in the Financial Report
                           of the United States Government. TFM Part 2, Chapter 4706.1 (TFM 4706.10)
                           further references the requirements of OMB Bulletin 01-09. FMS monitors the
                           intragovernmental payment and collection (IPAC) process for the entire
                           federal government and accumulates daily IPAC transactions among all
                           federal agencies using its Intragovernmental Reporting and Analysis System.
                           To facilitate the quarterly FMS reports, FMS developed a reconciliation
                           process based on a reciprocal category concept. As of September 30, 2004,
                           FMS identified $10.4 billion of unreconciled differences between USAID and
                           37 separate federal agencies and one unassigned agency.

                           USAID did not reconcile other significant activities and balances for fiscal
                           year 2004 because it did not effectively assign the necessary staff resources to
                           reconcile its quarterly activities and balances with federal trading partners and
                           promptly resolve differences. On the other hand, these same federal trading
                           partners have not always attempted to do the same with USAID. As a result of
                           the reportable condition, year-end balances in USAID’s intragovernmental line
                           items reported on the financial statements may be misstated.

2
          For example, federal interests are recorded in pairings of related U.S. Standard General Ledger accounts (federal
interest receivable, interest payable, appropriation transfers in/out, revenue and expense and budgetary accounts).


                                                                                                              17
The OIG determined that, in accordance with TFM Bulletin No. 2004-04,
USAID could begin to reconcile significant activities and balances in FY 2004
on a quarterly basis for most activities and balances identified in the MD/SD.
USAID has taken actions to address those material differences reported by
FMS in the MD/SD every quarter. USAID has also informed the OIG of its
plan to reconcile all differences exceeding $100 million with federal trading
partners. We will review USAID’s implementation of this plan in future
audits.

In the second quarter of FY 2004, after FMS submitted MD/SD reports to
federal agencies, USAID began performing intragovernmental reconciliations
of reported material differences. As a result, USAID discovered that activity
differences with federal trading partners occurred because of timing
differences and reporting errors between federal agencies. In one instance,
USAID resolved $856 million of activity differences resulting from
erroneously reporting a trading partner code. Unresolved differences with
federal trading partners may also be reported in the MD/SD because of
accounting errors or differences in accounting methodologies.

Because USAID did not begin to resolve other significant differences in fiscal
year 2004, however, we are making the following recommendation:

       Recommendation No 4: We recommend that USAID’s Chief
       Financial Officer direct its Financial Management Office to
               conduct quarterly intragovernmental reconciliations of
       activity and balances with its trading partners, in accordance with
       the requirements of the Federal Intragovernmental Transactions
       Accounting Policies Guide, issued by the Department of Treasury’s
       Financial Management Service.

Unliquidated Obligations Were Not Always Deobligated as Necessary
(Repeat Finding)

USAID needs to improve its determination process for deobligating unliquidated
obligations. At fiscal year-end, USAID’s records show about $61 million of
unliquidated obligations that were not deobligated as necessary and may no
longer be needed for their original obligation purpose. In response to a previous
OIG audit recommendation, USAID’s Business Transformation Executive
Committee (BTEC) reviewed approximately $80 million in inactive obligations
of $100,000 or more during FY 2004 and coordinated with USAID Bureaus to
review those inactive obligations and to make a determination regarding the
deobligation of those funds. As of the fiscal year-end, however, USAID had not
determined whether approximately $15 million of those inactive obligations
could be deobligated because USAID Bureaus did not report their determination
of those inactive obligations to the BTEC. USAID also did not deobligate about


                                                                           18
$46 million in other inactive obligations from current USAID records because its
bureaus did not develop support for these determinations or report their results to
USAID. As a result, as of September 30, 2004, about $61 million in inactive
obligations still remained unliquidated that could be available for deobligation.
This represents a decrease from the $119 million in unliquidated obligations
reported in our FY 2003 audit. More than 51 percent of the $61 million is over
the $100,000 threshold established by USAID for periodic review and
deobligation as necessary. Consequently, remaining unliquidated amounts will
not be available to USAID for other purposes.

USAID’s Automated Directives System (ADS) 621.3.15, Annual Certification of
Unexpended Balances, states, “As part of the annual budget process, Assistant
Administrators, independent office directors, and mission directors must certify
whether unexpended balances are necessary for ongoing programs.” The
directive further requires that when conducting reviews of obligations to identify
funds that must be deobligated, obligation managers and others involved in the
review process should consider circumstances that could result in excessive or
unneeded obligation balances. According to ADS 621.3.13, where there is an
unobligated balance that has remained unchanged for twelve months or more and
there is no evidence of receipt of services and/or goods during that same 12-
month period, the remaining balances may no longer be needed. But ADS 621
does not identify an appropriate way of reviewing unliquidated obligations,
including guidance on the use of aging to determine their validity.

In FY 2002, USAID’s Business Transformation Executive Committee working
group reviewed 576 awards with performance periods ending on or before
September 30, 2000, and having unliquidated obligation balances of $100,000
or more. As a result of the group’s review, USAID deobligated about $100
million of the reported unliquidated obligations related to the 576 awards.
However, because USAID has not fully institutionalized business processes
and policy and procedural improvements, many other unliquidated obligations
may be available for deobligation.

In FY 2004, USAID had taken actions to implement our previously reported
recommendations by (1) expanding procedural guidance for reviews needed to
identify unliquidated obligations that are no longer needed, and (2) including
both ad hoc reports and core accounting system reports to assist USAID Bureaus
in reviewing unliquidated obligations and making determinations regarding the
deobligation of funds. Despite that improvement, as of September 30, 2004,
USAID did not resolve approximately $61 million in inactive obligations in these
reports. As a result, USAID was unable to provide its program managers and
oversight agencies with amounts available for other purposes. This reportable
condition does not have any material impact on the Statement of Budgetary
Resources.




                                                                       19
                          USAID’s Accrual Reporting System requires USAID’s obligation managers to
                          review approve system-generated expenses based on recorded unliquidated
                          obligations. If this system is maintained as intended, it should enable USAID to
                          routinely identify obligations that could be deobligated. We will continue to
                          review USAID’s progress in reviewing inactive obligations in our FY 2005
                          financial statement audit.

                          USAID's System for Preparing Its Management’s Discussion and Analysis
                          Needs Improvement (Repeat Finding)

                          OMB Bulletin 01-02 requires the OIG to (a) obtain an understanding of the
                          components of internal controls relating to the existence3 and completeness4
                          assertions relevant to the performance measures included in the MD&A and
                          (b) report on those internal controls that have not been properly designed and
                          placed in operation.

                          The MD&A is a narrative overview, prepared by management, which
                          describes the reporting entity and its mission, activities, program and financial
                          results, and financial condition. Statement of Federal Financial Accounting
                          Standards (SFFAS) No. 15, Management's Discussion and Analysis, requires
                          the MD&A to be included in each annual financial statement as required
                          supplementary information.        OMB Bulletin 01-09 provides additional
                          guidance for preparing the MD&A.

                          Based on a limited review of USAID's system to collect and report
                          performance information in the draft MD&A for FY 2004, the OIG identified
                          the following weakness:

                          •   USAID's current system does not allow the reporting of agency-wide
                              performance results for the current year. Certain performance information
                              for FY 2004 indicating the extent to which programs were achieving their
                              objectives is based on results achieved in FY 2003. For example, Section
                              1.6 Most Important Results and Continuing Challenges does not identify
                              targets against which to compare results. Although these results include
                              predominantly FY 2004 information, FY 2003 information is included as
                              well. Therefore, Section 1.6 of the MD&A for FY 2004 does not provide a
                              clear picture of planned and actual performance for fiscal year 2004 and
                              does not adequately reflect the actual costs for the current fiscal year.



3
         This management assertion deals with whether information included in the MD&A actually occurred
during the given period.
4
         This management assertion deals with whether all performance results which should be presented have
been included.




                                                                                                               20
USAID has made notable improvements to this year’s draft MD&A over the
FY 2003 MD&A in two major ways:

•   The draft MD&A for FY 2004 reported more current-year results in
    meeting the criteria set by OMB than the prior year’s MD&A. USAID’s
    present ability to compare the estimated current-year results against
    established goals and targets is a significant step in the right direction.

•   The draft MD&A for FY 2004 uses USAID’s New Strategic Planning
    Framework and Goal Structure – Joint USAID/State Strategic Plan –
    between the State Department and USAID. The new framework is
    designed to represent a more coherent, concise and logical reflection of
    how the Department and USAID organize their work towards given
    results/outcomes.

As the OIG reported in previous years, we recommend that USAID continue its
efforts to improve its system for collecting, summarizing, and preparing actual
performance information included in the MD&A. Specifically, USAID needs to
further refine its current system so that the MD&A contains a clear picture of
USAID's planned performance goals and targets for the current year and a
comparison of these goals with actual results for the current year.

This report is intended solely for the information and use of the management of
USAID, OMB and Congress, and is not intended to be and should not be used by
anyone other than those specified parties.




USAID, Office of Inspector General
November 15, 2004




                                                                    21
This page intentionally left blank.




                                      22
                         Independent Auditor’s Report on Compliance
                                 With Laws and Regulations

Report on       We have audited the consolidated balance sheet of USAID as of September 30,
                2004 and 2003. We have also audited the consolidated statement of changes in
Compliance
                net position, consolidated statement of net cost, combined statement of budgetary
with Laws and   resources, and consolidated statement of financing for the fiscal years ended
Regulations     September 30, 2004 and 2003, and have issued our report thereon. We
                conducted the audit in accordance with generally accepted auditing standards;
                Government Auditing Standards, issued by the Comptroller General of the
                United States; and Office of Management and Budget (OMB) Bulletin No. 01-
                02, Audit Requirements for Federal Financial Statements.

                USAID management is responsible for complying with laws and regulations
                applicable to USAID. As part of obtaining reasonable assurance about whether
                USAID’s financial statements are free of material misstatement, we performed
                tests of its compliance with certain provisions of laws and regulations,
                noncompliance with which could have a direct and material effect on the
                determination of financial statement amounts, and certain other laws and
                regulations specified in OMB Bulletin 01-02, including the requirements referred
                to in the Federal Financial Management Improvement Act of 1996 (FFMIA).
                We limited our tests of compliance to these provisions and did not test
                compliance with all laws and regulations applicable to USAID.

                The results of our tests of compliance with the laws and regulations described in
                the preceding paragraph, exclusive of FFMIA, disclosed an instance of
                noncompliance with Section 620(q) of the Foreign Assistance Act of 1961, and
                the Brooke Amendment.

                Under FFMIA, we are required to report whether USAID’s financial
                management systems substantially comply with federal financial management
                systems requirements, applicable federal accounting standards, and the United
                States Government Standard General Ledger at the transaction level. To meet
                this requirement, we performed tests of compliance with FFMIA section 803 (a)
                requirements. The results of our tests disclosed three instances in which
                USAID's financial management systems did not substantially comply with
                FFMIA requirements.

                Our tests of compliance with selected provisions of laws and regulations
                disclosed instances of noncompliance considered to be reportable under
                Government Auditing Standards. However, our objective was not to provide
                an opinion on overall compliance with laws and regulations. Accordingly, we
                do not express such an opinion.




                                                                                     23
Noncompliance Other than FFMIA

620(q)/Brooke Amendment Report is not Functioning as a Proper Notice

Since March 2004, the USAID-prepared 620(q)/Brooke Amendment Violation
Report has not properly reflected the status of foreign governments in violation
or potential violation of Section 620(q) of the Foreign Assistance Act of 1961
and the Brooke Amendment to the Foreign Operations Appropriations Act of
1999. Section 620(q) prohibits the provision of federal assistance to any
foreign government in default, for more than six months, on its loan
obligations to the U.S. The Brooke Amendment identifies the same sanctions
for foreign governments in default for more than one year. In May 2004,
USAID should have identified a foreign government in the potential 620(q)
violation category for failure to fulfill its loan obligations. This foreign
government was not listed on the report until they were in Brooke violation in
October 2004 after having received $22.5 million in new obligations from
USAID subsequent to May 2004. USAID’s Loan Management Division
(LMD) did not notify the foreign government of its potential 620(q)/Brooke
violation with the appropriate 45-day or 120-day notice. Although USAID is
rescheduling a portion of the foreign government’s loans, LMD did not
effectively monitor several loans in arrears that were not undergoing
rescheduling. Also because Riggs Bank (USAID’s loan servicing agent) does
not submit its reports on delinquent loans directly to USAID’s Chief Financial
Officer (CFO) in addition to LMD, the CFO could not effectively monitor the
entire loan management process. LMD did not ensure that payments were
made on these loans and did not have current written procedures for preparing
and maintaining the 620(q)/Brooke Amendment Violation Report, particularly
with respect to reviewing potential violations for countries undergoing loan
rescheduling.

ADS 623.3.5.7 Monitoring 620(q)/Brooke states that LMD has the primary
responsibility for monitoring 620(q) and Brooke compliance using Department
of Defense and Export Import Bank information and internally developed
reports on delinquency, and for notifying bureaus and missions when a USAID
loan payment is past due. At least one follow-up to this initial message is sent
on USAID loan arrearages stating that, unless payment is received, 620(q) or
Brooke (if applicable) apply on a specific date. This message must provide a
warning of about 45 days for either 620(q) or Brooke dates.

Because the report is not properly prepared, management’s ability to properly
monitor countries that are in potential or current violation is impaired; the
foreign governments may not be properly notified within at least 45 days of
their potential violation to allow time to prevent the violation; and USAID and
other federal agencies may commit new obligations after a particular country
moves into noncompliance with 620(q) or Brooke.


                                                                          24
                                  Recommendation No. 5: We recommend that USAID’s Chief
                                  Financial Officer update written procedures related to the
                                  preparation of the 620(q)/Brooke Amendment Violation Report;
                                  the monitoring of non-rescheduled loans for countries under
                                  rescheduling; and the receipt of loan delinquency reports from its
                                  loan servicing agent.

                          Reportable Noncompliance with FFMIA (Repeat Finding)

                          OIG reported that USAID’s financial management systems did not
                          substantially comply with system requirements under FFMIA.5 USAID’s
                          reportable noncompliance conditions related to (1) USAID’s new core
                          financial management system at overseas missions not being deployed, (2)
                          funds control issues in USAID’s core financial management system in
                          Washington, and (3) USAID’s financial management system compliance with
                          the U.S. Standard General Ledger at the transaction level for its overseas
                          missions. As a result, during FY 2004, USAID relied on a combination of
                          outdated legacy systems; informal, unofficial records; and a core financial
                          management system which suffered from technical and operational problems.

                          According to FFMIA, federal agencies must implement and maintain financial
                          management systems that comply substantially with federal financial
                          management system requirements. The Act states that users should have on-
                          line access to, or receive daily reports on, the status of funds to perform
                          analysis or make decisions. OMB Circular A-11 states that an agency that is
                          not in compliance with FFMIA must prepare a remediation plan. The purpose
                          of a remediation plan is to identify activities planned and underway that will
                          allow USAID to achieve substantial compliance with FFMIA. Remediation
                          plans must include the resources, remedies, interim target dates, and
                          responsible officials. Further, the remediation target dates must be within
                          three years of the date the system was determined not to be substantially
                          compliant.

                          In response to our previous audit reports, USAID closed computer security as
                          a material weakness in March 2004 and implemented a new core financial
                          system at five missions. Currently, USAID plans to complete worldwide
                          deployment of the system by the second quarter of fiscal year 2006. The
                          integration of the procurement system is planned to occur at that time.
                          Compliance with financial management system requirements will depend upon
                          the completion of successful implementation of the systems. The OIG will

        5
                  Reports on USAID’s Consolidated Financial Statements, Internal Controls, and Compliance for Fiscal
Year 2000 (Audit Report No. 0-000-01-006-F, February 26, 2001); Reports on USAID’s Consolidated Financial
Statements, Internal Controls, and Compliance for Fiscal Year 1999 (Audit Report No. 0-000-00-006-F, February 18,
2000); and Audit of the Extent to Which USAID’s Financial Management System Meets Requirements Identified in the
Federal Financial Management Improvement Act of 1996 (Audit Report No. A-000-98-003-P, March 2, 1998).


                                                                                                         25
continue to monitor USAID’s progress in becoming substantially compliant
with FFMIA.

       New Core Financial Management System Is Not Deployed

While USAID did begin overseas deployment of its new core financial system,
it did not implement the deployment of the new core financial management
system for other overseas missions. Pilot deployment took place at USAID
missions in Colombia, Egypt, Ghana, Nigeria and Peru in June 2004.
According to USAID officials, all 38 accounting stations will be converted to
the new system by the spring of 2006.

OMB Circular A-127, Financial Management Systems, prescribes policies and
standards for agencies to follow in developing, operating, evaluating, and
reporting on financial management systems. Section 7 of the Circular
identifies the requirements that federal financial systems should meet. In
January 2001, OMB issued guidance, Revised Guidance for the Federal
Financial Management Improvement Act, to supplement Office of
Management and Budget Circular A-127. The purpose of the guidance is to
help determine whether financial systems substantially comply with FFMIA
requirements. That guidance identifies various requirements that an agency
must meet and USAID’s ability to meet financial management system
requirements is contingent upon successful overseas deployment of its new
financial system.

In 2004, the Department of State (State) and USAID submitted a joint Office
of Management and Budget A-300 budget submission.               That budget
submission stated that State and USAID will share a core financial system but
maintain separate databases due to the very different business processes and
information requirements. Joint State and USAID operations are to begin in
October 2005.

       Funds Control Problem in the Core Accounting System

Although USAID has enhanced its financial management systems, it continued
to use a separate system to process obligations for its overseas missions
because it has not integrated the systems to further strengthen funds control.
As a result, USAID's financial system may not have provided users with
complete, accurate, and timely financial information needed for
decision-making purposes.

According to OMB Circular A-11, Preparation, Submission, and Execution of
the Budget, each federal agency is responsible for establishing a funds control
system that will ensure that the agency does not obligate or expend funds in
excess of those appropriated or apportioned. The Circular also states that



                                                                          26
                         multi-year unobligated funds remaining available at year-end must be
                         reapportioned in the upcoming fiscal year.

                         In January 2003,6 the OIG reported that, because USAID did not have an
                         integrated financial management system, it used a separate system to process
                         obligations for its overseas missions. As such, the appropriation amount
                         displayed as available after the roll-up of mission obligations was overstated
                         by the amount of these same mission obligations. To compensate for this
                         weakness, USAID allowed only a few users to apportion funds. Further, those
                         users had access to records held outside of USAID’s core accounting system to
                         track mission obligations and determine the correct amount available for
                         apportionment. Because this issue should be corrected with the deployment of
                         the core financial system to the overseas missions, we did not make any
                         recommendations. The OIG will continue to monitor USAID’s progress in
                         deploying its core financial system overseas.

                                  USAID’s Core Financial Management System for Overseas
                                  Mission Activities Did Not Comply with the U.S. General Ledger
                                  Standard at the Transaction Level

                         Because the Mission Accounting and Control System continued to operate as
                         the financial system for overseas missions, USAID has not recorded mission
                         activities using the standard general ledger at the transaction level to support
                         financial reporting and meet requirements. Therefore, USAID cannot ensure
                         that transactions are posted properly and consistently from mission to mission.

                         FFMIA requires agencies to implement and maintain systems that comply
                         substantially with, among other things, the United States Standard General
                         Ledger (USSGL) at the transaction level. This requires the agency’s recording
                         of financial events to be consistent with all applicable account descriptions and
                         posting models/attributes reflected in the standard general ledger issued by the
                         Department of the Treasury, Financial Management Service.

                         The OIG previously determined that USAID did not substantially comply with
                         the USSGL at the transaction level. Specifically, in fiscal year 2001, the OIG
                         reported that USAID did not record mission activities—accounting for
                         approximately 52 percent of USAID's total net cost of operations—using the
                         standard general ledger at the transaction level. This occurred because USAID
                         recorded mission activities in the Mission Accounting and Control System—a
                         computer-based system that did not have a standard general ledger chart of
                         accounts. Instead, the Mission Accounting and Control System uses
                         transaction codes to record transactions.


6
         Report on USAID’s Consolidated Financial Statements, Internal Controls And Compliance for Fiscal Year
2002 , (Audit Report No. 0-000-03-001-C, January 24, 2003)


                                                                                                       27
USAID needs to record mission activities using the standard general ledger at
the transaction level to support financial reporting and meet FFMIA
requirements. USAID plans to convert all of its accounting stations to its new
core financial system by the Spring of 2006. The OIG will continue to
monitor USAID’s progress in deploying its core financial system overseas.

This report is intended solely for the information and use of the management of
USAID, OMB and Congress, and is not intended to be and should not be used by
anyone other than those specified parties.




USAID, Office of Inspector General
November 15, 2004




                                                                          28
Evaluation of   We have received USAID’s management comments to the findings and
Management      recommendations included in our draft report. USAID management agreed
Comments        with the material weakness and the reportable conditions.            USAID
                management noted that they were extremely pleased that the OIG was able to
                issue unqualified opinions on all of USAID’s principal financial statements.
                USAID management also stated they were pleased that the draft report fairly
                presented their progress and remaining challenges. We have evaluated USAID
                management comments on the recommendations and have reached
                management decisions on all five recommendations. The following is a brief
                summary of USAID’s management comments on each of the five
                recommendations included in this report and our evaluation of those
                comments.

                Recommendation No. 1

                USAID management agreed with Recommendation No. 1 and commented that
                they will agree to work with other responsible offices to implement this
                recommendation. USAID management has set a target completion date of
                September 30, 2005. We agree with the management decision on this
                recommendation and will review USAID’s implementation of this
                recommendation in our FY 2005 GMRA audit.

                Recommendation No. 2

                USAID management agreed with Recommendation Nos. 2.1 and 2.2 and noted
                that they will agree to work with the Office of Policy and Program
                Coordination to implement this recommendation. USAID management has set
                a target completion date of September 30, 2005. We agree with the
                management decision on this recommendation and will review USAID’s
                implementation of this recommendation in our FY 2005 GMRA audit.

                Recommendation No. 3

                USAID management agreed with Recommendation No. 3 and stated they will
                agree to implement and continue to engage overseas staff in this process.
                USAID management has set a target completion date of September 30, 2005.
                We agree with the management decision on this recommendation and will
                continue to monitor the development and attainment of specific written desk
                procedures in our FY 2005 GMRA audit.

                Recommendation No. 4

                USAID management agreed with Recommendation No. 4.              USAID
                management has set a target completion date of September 30, 2005. We


                                                                                 29
agree with the management decision on this recommendation. We will
monitor the quarterly intragovernmental reconciliations and ensure the
requirements of the Federal Intragovernmental Transactions Accounting
Polices Guide are achieved in our FY 2005 GMRA audit.

Recommendation No. 5

USAID management agreed with Recommendation No. 5 and has set a target
completion date of September 30, 2005. We agree with the management
decision on this recommendation. In our FY 2005 GMRA audit, we will
monitor USAID’s progress in compliance with Section 620(q) of the Foreign
Assistance Act.

See Appendix II for USAID’s management comments.




                                                                    30
                                                                                   Appendix I
              USAID management is responsible for (1) preparing the financial statements in
Scope and     accordance with generally accepted accounting principles, (2) establishing,
Methodology   maintaining and assessing internal control to provide reasonable assurance that
              the broad control objectives of the Federal Managers’ Financial Integrity Act are
              met, (3) ensuring that USAID’s financial management systems substantially
              comply with FFMIA requirements, and (4) complying with applicable laws and
              regulations.

              The Office of Inspector General is responsible for obtaining reasonable assurance
              about whether the financial statements are presented fairly, in all material
              respects, in conformity with generally accepted accounting principles. The
              Office of Inspector General is also responsible for (1) obtaining a sufficient
              understanding of internal control over financial reporting and compliance to plan
              the audit (2) testing whether USAID’s financial management systems
              substantially comply with the three FFMIA requirements, (3) testing compliance
              with selected provisions of laws and regulations that have a direct and material
              effect on the financial statements and laws for which OMB audit guidance
              requires testing, and (4) performing limited procedures with respect to certain
              other information appearing in the Accountability Report.

              In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence
              supporting the amounts and disclosures in the financial statements, (2) assessed
              the accounting principles used and significant estimates made by management,
              (3) evaluated the overall presentation of the financial statements, (4) obtained an
              understanding of internal control related to financial reporting (including
              safeguarding assets), compliance with laws and regulations (including execution
              of transactions in accordance with budget authority), and performance measures
              reported in Management’s Discussion and Analysis of the Accountability Report,
              (5) tested relevant internal controls over financial reporting and compliance, and
              evaluated the design and operating effectiveness of internal controls, (6)
              considered the process for evaluating and reporting on internal control and
              financial management systems under the Federal Managers’ Financial Integrity
              Act, (7) tested whether USAID’s financial management systems substantially
              complied with the three FFMIA requirements, and (8) tested USAID’s
              compliance with selected provisions of the following laws and regulations:

                      •   Anti-Deficiency Act
                      •   Improper Payments Act
                      •   Prompt Payment Act
                      •   Debt Collection and Improvement Act
                      •   Federal Credit Reform Act.
                      •   OMB Bulletin 01-09
                      •   Foreign Assistance Act of 1961




                                                                                        31
We did not evaluate all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act, such as those
controls relevant to preparing statistical reports and ensuring efficient operations.
We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements
due to error or fraud, losses, or noncompliance may occur and not be detected.
We also caution that projecting our evaluation to future periods is subject to the
risk that controls may become inadequate because of changes in conditions or
that the degree of compliance with controls may deteriorate. In addition, we
caution that our internal control testing may not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to USAID.
We limited our tests of compliance to those laws and regulations required by
OMB audit guidance that we deemed applicable to the financial statements for
the fiscal years ended September 30, 2004 and 2003. We caution that
noncompliance may occur and not be detected by these tests and that such
testing may not be sufficient for other purposes.

With respect to the Management’s Discussion and Analysis (MD&A), we did
not perform an audit. However, we gained an understanding of USAID’s
system of collecting and reporting performance information. We did not
assess the quality of the performance indicators and performed only limited
tests to assess the controls established by USAID. Based on our limited tests
of the measurement and presentation of performance results reported in the
MD&A, we identified certain weaknesses that, in our judgment, affected
USAID’s portrayal of performance results as required by prescribed
guidelines. We conducted a limited review of the internal controls related to
the existence and completeness assertions relevant to the performance
measures included in the MD&A.

In forming our opinion, the OIG considered potential aggregate errors
exceeding $309 million for any individual statement to be material to the
presentation of the overall financial statements.




                                                                               32
                                                               Appendix II
                  USAID Management Comments




                                                          November 12, 2004
MEMORANDUM

TO:            AIG/A, Bruce N. Crandlemire

FROM:          CFO, Lisa D. Fiely /s/

SUBJECT:       Management Response to Draft Independent Auditor's Report
               on USAID's Financial Statements for Fiscal Years 2004 and
               2003 (Report No. 0-000-05-001-C)

      Fiscal year 2004 was another significant year for federal financial
management at USAID. We are pleased that your draft report so fairly presents
both our progress and our remaining challenges. We are extremely pleased that
you are able to issue unqualified opinions on all of USAID's five principal
financial statements. We wish to recognize the OIG’s dedication and cooperation
throughout the audit process, and the excellent counsel and support the auditors
provided to us. We also appreciate your acknowledgement of the improvements
that we have made throughout the year to improve financial systems and processes.

     Following are our management decisions regarding the proposed audit
recommendations:

      Material Weakness: USAID’s Process for Reviewing and Reporting
      its Quarterly Accrued Expenditures and Accounts Payable Needs
      Improvement.

      Recommendation 1: We recommend that USAID’s Chief Financial Officer
      update USAID’s Cognizant Technical Officer training course and
      Financial Management Overview training course to include sessions on
      developing and supporting quarterly accrual estimates. The training should
      include information on supporting documentation, and on developing
      estimates in the absence of timely disbursement data necessary to develop


                                                                      33
accurate accruals.

Management Decision: We agree to work with other responsible offices to
implement this recommendation. Target completion date is September 30,
2005.

Reportable Condition: Certification Process for Mapping Strategic
Objectives to Performance Goals Needs Improvement (Previously
Reported as a Material Weakness).

Recommendation No 2: We recommend that the USAID Chief Financial
Officer, in coordination with the Assistant Administrator of the Bureau for
Policy and Program Coordination:
      2.1    Ensure that annual certifications of strategic objectives to Agency
             goals, which are made when information from the Annual Reports
             Database is finalized, are conducted consistently by all USAID
             operating units.
      2.2    Include all active strategic objectives expending funds in the
             Annual Reports Database.

Management Decision: We agree to work with PPC to implement these
recommendations. Target completion date is September 30, 2005.

USAID’s Process for Reconciling its Fund Balance with the U.S. Treasury
Needs Improvement (Repeat Finding).

Recommendation 3: We recommend that USAID’s Chief Financial Officer
require its Office of Financial Management to develop and implement
specific written desk procedures requiring documenting and reporting
processes for the narratives of: (1) conditions of reconciling items and (2)
unreconciled conditions of fund balance accounts, for the reconciliation of
the fund balance with Treasury that incorporate and enhance existing
USAID and federal guidance.

Management Decision: We agree to implement recommendation 3 and will
continue to engage overseas staff in this process. Target completion date is




                                                                         34
      September 30, 2005.

      Reportable Condition: USAID’s Intragovernmental Reconciliation
      Process Needs Improvement.

      Recommendation 4: We recommend that USAID’s Chief Financial Officer
      direct its Financial Management Office to conduct quarterly
      intragovernmental reconciliations of activity and balances with its trading
      partners, in accordance with the requirements of the Federal
      Intragovernmental Transactions Accounting Policies Guide, issued by the
      Department of Treasury’s Financial Management Service.

      Management Decision: We agree to implement recommendation 4. Target
      completion date is September 30, 2005.

      Noncompliance Other than FFMIA: 620(q)/Brooke Amendment Report
      not Functioning as a Proper Notice

      Recommendation No. 5: We recommend that USAID’s Chief Financial
      Officer update written procedures related to the preparation of the
      620(q)/Brooke Amendment Violation Report; the monitoring of non-
      rescheduled loans for countries under rescheduling; and the receipt of loan
      delinquency reports from its loan servicing agent.

      Management Decision: We agree to implement recommendation 5. Target
      completion date is September 30, 2005.

       In closing, I would like to restate USAID’s commitment to continual
improvement in financial management. That commitment permeates throughout
the Agency. We will continue the improvements made in the last few years as we
work further to develop and implement the fundamental long-term solutions
needed to address the internal control weaknesses cited in your report. Both the
OIG and USAID management recognize that it is only through implementation of
our financial system worldwide that we will be able to overcome many of the
weaknesses cited in your audit report.




                                                                              35
This page intentionally left blank




                                     36
                                                                                Appendix III


                    Office of Management and Budget (OMB) Circular A-50 states that a
Status of           management decision on audit recommendations shall be made within a
Uncorrected         maximum of six months after a final report is issued. Corrective action
Findings and        should proceed as rapidly as possible.           The following audit
Recommendations     recommendations directed to USAID either have not been corrected or
from Prior Audits   final action has not been completed as of September 30, 2004. We have
                    also noted where final action was taken subsequent to fiscal year-end but
That Affect the
                    prior to the date of this report.
Current Audit
Objectives          Report on USAID’s Financial Statements, Internal Controls, and
                    Compliance for Fiscal Year 1998
                    Audit Report No. 0-000-99-001-F, March 1, 1999

                    Recommendation No. 1: Because the Chief Financial Officer lacks the
                    authority called for in the CFO Act, we recommend that the Chief
                    Financial Officer collaborate with the Assistant Administrator for
                    Management, Chief Information Officer, and Bureau for Policy and
                    Program Coordination to:

                    1.1    Determine the specific responsibility, authority, and resources
                           needed to meet the requirements of the Chief Financial Officers Act
                           of 1990, which assigns the Chief Financial Officer responsibility to:
                           (1) develop and maintain an integrated accounting and financial
                           management system that meets federal financial system
                           requirements, federal accounting standards, and the U.S. Standard
                           General Ledger at the transaction level; (2) approve and manage
                           financial management system design and enhancement projects;
                           and (3) develop a financial management system that provides for
                           systematic measurement of performance.

                    Recommendation is pending final action by USAID.

                    Report on USAID’S Consolidated Financial Statements, Internal
                    Controls and Compliance for Fiscal-Year 2002
                    Audit Report No. 0-000-03-001-C, January 24, 2003

                    Recommendation No. 2: We recommend that the Chief Financial Officer:

                    2.2    Reconcile the mission adjustment account in the general ledger to the
                           cumulative amounts in the mission ledgers and resolve differences
                           between the general ledger and the mission ledgers.

                    Recommendation is pending final action by USAID.



                                                                                         37
This page intentionally left blank




                                     38
Unaudited                                                                            Appendix IV

               Financial Highlights
            USAID’s financial statements, which appear in the Financial Section of this Report,
            received for the second consecutive year an unqualified audit opinion issued by the
            USAID Office of the Inspector General. Preparing these statements is part of the
            Agency’s goal to improve financial management and provide accurate and reliable
            information useful for assessing performance and allocating resources. Agency
            management is responsible for the integrity and objectivity of the financial information
            presented in these financial statements.

            USAID prepares consolidated financial statements that include a Balance Sheet, a
            Statement of Net Cost, a Statement of Changes in Net Position, a Statement of
            Budgetary Resources and a Statement of Financing. These statements summarize the
            financial activity and position of the agency. Highlights of the financial information
            presented on the principal statements are provided below.

            Overview of Financial Position
            Assets. The Consolidated Balance Sheet shows the Agency had Total Assets of $24
            billion at the end of 2004. This represents a 10.1% increase over previous year’s
            Total Assets of $21.8 billion. This is primarily the result of increases in USAID’s
            overall Budget Authority, which increased by over $700 million in FY 2004.

            Table 1: The Agency’s assets reflected in the Consolidated Balance Sheet are
            summarized in the following table (dollars in thousands):

                                                 2004                    2003               200
                                                                                             2
      Fund Balance with Treasury                $15,854,926      $14,215,414          $11,897,972
      Loans Receivables, Net                     6,108,252          5,696,597           5,997,453
      Accounts Receivables, Net                  1,100,968          1,200,387             527,485
      Cash, Advances and Other                     847,807           623,477              638,377
      Assets
      Property, Plant and                          117,718             88,360               74,690
      Equipment, Net & Inventory
      Total Assets                            $24,029,671        $21,824,235          $19,135,977


            Fund Balances with Treasury and Loans Receivable, Net comprise the majority of
            USAID’s assets. Together they account for over 90% of total assets for 2004, 2003 and
            2002.    USAID maintains funds with Treasury to pay its operating and program
            expenses. These funds increased by $1.6 billion (11.5%) and represent the largest asset
            dollar amount change from FY 2003.




                                                                                             39
Unaudited                                                                                Appendix IV

            Existing loans receivables, net of estimated allowances for loan losses, decrease over
            time as a result of collections. Loan receivables, Net experienced a 7.2% increase from
            FY 2003. The overall increase in Loans receivable balance was because the decrease to
            the credit balance of this year’s estimated allowance for losses on loans exceeded the

            decrease to the debit balance of gross loans receivable attributable to loan collections.

            The largest percentage change in assets line items on the Balance Sheet occurred in
            Advances and Prepayments, an increase of 59.9% (from $350 million in FY 2003 to
            $560 million in FY 2004). This increase is due to letter of credit draw down activities
            and the lag in liquidation reporting by grantees.

            The table below presents USAID’s asset type by percentage for fiscal year 2004.

            Table 2: Percentage of Assets by Type, FY 2004
                     Assets by Type                                         Percen
                                                                             tage
                       Fund Balance with Treasury                            66.0%

                       Loans Receivables, Net                                25.4%

                       Accounts Receivables, Net                               4.6%

                       Cash, Advances and Other Assets                         3.5%

                       Property, Plant and                                     0.5%
                       Equipment, Net & Inventory
                       Total                                                  100%


            Liabilities. As presented on the Consolidated Balance Sheet, the Agency had almost
            $10 billion in Total Liabilities at the end of 2004. This amount represents a $642
            million, or 6.9% increase in Total Liabilities from the prior year. Liabilities are
            summarized in the following table (dollars in thousands):

            Table 3:
                                             2004                         2003                      2002
 Debt & Due to U.S. Treasury               $6,145,006                    $5,748,890               $5,875,919
 Accounts Payable                           1,990,001                    1,870,077                 1,171,533
 Loan Guaranty Liability                    1,039,937                    1,159,415                 1,048,751
 Other Liabilities                            803,847                      553,500                   396,139
 Total Liabilities                         $9,973,791                    $9,331,882               $8,492,342




                                                                                                        40
Unaudited                                                                               Appendix IV

            As reflected in Table 3, Credit Program Liabilities consisting mainly of Debt, amounts
            payable to U.S. Treasury and Loan Guaranty Liability account for most of USAID’s
            Total Liabilities for 2004, 2003 and 2002. Debt and Due to Treasury combined
            represented 61.6 % of Total Liabilities for FY 2004. The Loan Guaranty Liability
            comprised 10.4 % of Total Liabilities for FY 2004.

            Debt and Due to Treasury combined increased by 6.9%, or $396 million, from FY 2003.
            Loan Guaranty Liability, which is associated with USAID’s guarantees of loans made

            by private lending institutions, decreased by 10.3% or by $119 million from FY 2003.

            The largest percentage change in Liabilities occurred in the Other Liabilities line items.
            Combined Federal and non-Federal Other Liabilities increased by 44.3%, or $245
            million, from FY2003. This change is primarily a result of increases in the liability for
            undisbursed loans and related subsidy re-estimates.

            The table below presents USAID’s percentage of liabilities by type for fiscal year 2004
            (dollars in thousands):

            Table 4: Percentage of Liabilities by Type, FY 2004

                 Liabilities by Type, FY 2004                            Percentage
                 Debt & Due to U.S. Treasury                              61.6%
                 Accounts Payable                                         20.0 %
                 Loan Guaranty Liability                                  10.4%
                 Other Liabilities                                          8.0%
                 Total                                                    100.0%

            Ending Net Position. Net Position is the sum of the Unexpended Appropriations and
            Cumulative Results of Operations. USAID’s Net Position at the end of 2004 on the
            Consolidated Balance Sheet and the Consolidated Statement of Changes in Net Position
            was $14 billion, a $1.6 billion increase from the previous fiscal year. Unexpended
            Appropriations of $13.4 billion or 95.3% represent funds appropriated by the Congress
            for use over multiple years that were not expended by the end of FY 2004.

            Results of Operations

            The results of operations are reported in the Consolidated Statement of Net Cost and the
            Consolidated Statement of Changes in Net Position.

            The Consolidated Statement of Net Cost presents the Agency’s gross and net cost for its
            strategic goals. The net cost of operations is the gross (i.e., total) cost incurred by the
            Agency, less any exchange (i.e., earned) revenue. The Schedule of Net Cost categorizes
            costs and revenues by strategic and performance goal and responsibility segments. A
            responsibility segment is the component that carries out a mission or major line of
            activity, and whose managers report directly to top management. For the
                                                                                                    41
Unaudited                                                                              Appendix IV
            Agency, the technical and geographical bureaus (e.g., Global Health or Latin
            America/Caribbean) are considered a responsibility segment. Information on the
            Bureaus can be found in Note 17.

            The presentation of program results by strategic goals is based on the Agency’s current
            joint State/USAID Strategic Plan established pursuant to the Government Performance
            and Results Act of 1993. In accordance with current guidance, prior year data is also
            presented according to the corresponding strategic goal for comparative presentation.

            The Agency’s total net cost of operations for 2004, after intra-agency eliminations, was
            $10.6 billion. The strategic objective, Social and Environmental Issues represents the

            largest investment for the Agency at 40.9% of the Agency’s net cost of operations. The
            net cost of operations for the remaining strategic objectives varies from .3% to 32%.
            Following is a breakout of net cost by Strategic Goal.

            Table 5: Net Program Costs by Strategic Goal, FY 2004

             Where the Funds Go – Net Program                               Dollar Amount
             Costs (Dollars in Thousands)
             Regional Stability                                             $ 652,999
             Counterterrorism                                                 129,465
             International Crime and Drugs                                     76,789
             Democracy and Human Rights                                      1,277,058
             Economic Prosperity and Security                                3,374,522
             Social and Environmental Issues                                 4,311,791
             Humanitarian Response                                             650,659
             Management and Organizational Excellence                           45,986
             Other                                                              34,313
             Total                                                         $10,553,582

            The Consolidated Statement of Changes in Net Position presents the accounting items
            that caused the net position section of the balance sheet to change since the beginning of
            the fiscal year. The statement comprises two major components: Unexpended
            Appropriations and Cumulative Results of Operations.

            Unexpended Appropriations increased by $1.6 billion or 13.7% from FY 2003 to FY
            2004. The growth in Unexpended Appropriations was due principally to the continued
            increase in budget authority received to rebuild the Agency’s programs, including
            increased funding for Iraq Reconstruction Assistance.

            Cumulative Results of Operations amount to $660 million as of September 30, 2004, a
            decrease of 7.6% from the $714 million balance a year earlier. This balance is the
            cumulative difference, for all previous fiscal years through 2004, between funds
            available to USIAD from all financing sources and the net cost of USAID.

                                                                                                         42
Unaudited                                                                            Appendix IV
            The Combined Statement of Budgetary Resources provides information on how
            budgetary resources were made available to the Agency for the year and their status at
            fiscal year-end. For the year, USAID had total budgetary resources of $14.6 billion,
            an increase of 9.3 % from the 2003 level. Budget authority of $11 billion, consisted
            of $9.2 billion for appropriations and $1.8 billion in net appropriation transfers.
            USAID incurred obligations of $11.4 billion for the year, a 13.1% increase from the
                $10.1 billion of obligations incurred during 2003.

            Table 6 below, reflects the funds that the Agency received during 2004 and how these
            funds were used.

              Where the Funds Come From                                Dollar Amount
              (Dollars in Thousands)
              Appropriations and Transfers                                    $11,072
              Unobligated Carry Over Balances (Net)                             1,229
              Other                                                             1,129
              Total                                                           $13,430

            The Combined Statement of Financing reconciles the resources available to the
            Agency to finance operations with the net costs of operating the Agency’s programs.
            Some operating costs, such as depreciation, do not require direct financing sources.

            Limitations to the Financial Statements
            The financial statements have been prepared to report the financial position and results
            of operations of USAID, pursuant to the requirements of 31 U.S.C. 3515(b). While the
            statements have been prepared from the books and records of USAID, in accordance
            with generally accepted accounting principles (GAAP) for Federal entities and the
            formats prescribed by the Office of Management and Budget (OMB), the statements are
            in addition to the financial reports used to monitor and control budgetary resources
            which are prepared from the same books and records. The statements should be read
            with the realization that USAID is a component of the U.S. Government, a sovereign
            entity.




                                                                                             43
                                                                                          Appendix IV
                                      U.S. Agency for International Development
                                       CONSOLIDATED BALANCE SHEET
                                          As of September 30, 2004 and 2003
                                                    (in thousands)



                                                                                  2004             2003 (Audited)
ASSETS
   Intragovernmental
     Fund Balance with Treasury (Note 2)                                    $     15,854,926   $        14,215,414
     Accounts Receivable (Note 3)                                                  1,031,168             1,134,074
     Other Assets (Note 4)                                                            30,920                32,998
   Total Intragovernmental                                                        16,917,014            15,382,486

    Cash and Other Monetary Assets (Note 5)                                          257,201               240,412
    Accounts Receivable, Net (Note 3)                                                 69,800                66,313
    Loans Receivable, Net (Note 6)                                                 6,108,252             5,696,597
    Inventory and Related Property (Note 7)                                           35,764                24,027
    General Property, Plant, and Equipment, Net (Note 8 and 9)                        81,954                64,333
    Advances and Prepayments (Note 4)                                                559,686               350,067
 Total Assets                                                                     24,029,671            21,824,235

LIABILITIES (Note 16)

   Intragovernmental
     Accounts Payable (Note 10)                                                       29,523                27,299
     Debt (Note 11)                                                                  111,081                79,165
     Due to U.S. Treasury (Note 11)                                                6,033,925             5,669,725
     Other Liabilities (Note 12, 13, and 14)                                         420,574                14,843
   Total Intragovernmental                                                         6,595,103             5,791,032

   Accounts Payable (Note 10)                                                      1,960,478             1,842,778
   Loan Guarantee Liability (Note 6)                                               1,039,937             1,159,415
   Federal Employees and Veteran's Benefits (Note 14)                                 24,523                27,400
   Other Liabilities (Note 12)                                                       353,750               511,257
   Total Liabilities                                                               9,973,791             9,331,882

   Commitments and Contingencies (Note 15)

 NET POSITION
  Unexpended Appropriations                                                       13,395,387            11,777,877
  Cumulative Results of Operations                                                   660,493               714,476
  Total Net Position                                                              14,055,880            12,492,353

 Total Liabilities and Net Position                                         $     24,029,671   $        21,824,235




                                                                                                           44
                                                                                                              Appendix IV
                                         U.S. Agency for International Development
                               CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                     For the periods ended September 30, 2004 and 2003
                                                        (in thousands)

                                                                 2004                                2003 (Audited)

                                                        Cumulative                            Cumulative
                                                         Results of      Unexpended            Results of      Unexpended
                                                        Operations      Appropriations        Operations      Appropriations

Beginning Balances                                  $         714,476 $     11,777,877    $         578,345 $     10,065,290
Prior period adjustments (Note 19)                                  -              -                  1,690                -
Beginning Balances, as adjusted                               714,476       11,777,877              580,035       10,065,290

 Budgetary Financing Sources:
  Appropriations Received                                                    9,186,373                            10,536,974
  Appropriations transferred-in/out                                          2,122,641                               113,059
  Other adjustments (recissions, etc)                             -            (49,538)                   -          (51,797)
  Appropriations used                                       9,641,966       (9,641,966)           8,885,648       (8,885,648)
  Nonexchange revenue                                             -
  Donations and forfeitures of cash
    and cash equivalents                                       83,683                               100,316
  Transfers-in/out without reimbursement                      763,675                             1,128,139
  Other budgetary financing sources                               -

 Other Financing Sources:
  Transfers-in/out without reimbursement                        1,823
  Imputed financing from costs absorbed by others               8,452                                13,902
 Total Financing Sources                                   10,499,599        1,617,510           10,128,005           1,712,588

 Net Cost of Operations                                    10,553,582                             9,993,565


Ending Balances                                     $         660,493 $     13,395,387    $         714,476 $     11,777,877




                                                                                                                 45
                                                                                                      Appendix IV
                                      U.S. Agency for International Development
                                   CONSOLIDATED STATEMENT OF NET COSTS
                                   For the Years Ended September 30, 2004 and 2003
                                                    (in thousands)


   Goal                                                                              2004              2003

Regional Stability
      Intragovernmental                                                                  13,161            19,196
      With the Public                                                                   641,109           369,695
        Total Costs                                                                     654,270           388,891
      Less Earned Revenues                                                               (1,271)             (618)
      Net Program Costs                                                                 652,999           388,273
Counterterrorism
      Intragovernmental                                                                  16,604                  805
      With the Public                                                                   112,915               77,010
        Total Costs                                                                     129,519               77,815
      Less Earned Revenues                                                                  (54)                 (26)
      Net Program Costs                                                                 129,465               77,789
International Crime and Drugs
      Intragovernmental                                                                      4,383          3,052
      With the Public                                                                       72,701        112,848
        Total Costs                                                                         77,084        115,901
      Less Earned Revenues                                                                    (295)           (98)
      Net Program Costs                                                                     76,789        115,803
Democracy and Human Rights
      Intragovernmental                                                                  20,209            27,999
      With the Public                                                                 1,260,638           875,203
        Total Costs                                                                   1,280,847           903,202
      Less Earned Revenues                                                               (3,789)             (892)
      Net Program Costs                                                               1,277,058           902,309
Economic Prosperity and Security
      Intragovernmental                                                                 118,496           170,453
      With the Public                                                                 3,270,365         3,644,744
        Total Costs                                                                   3,388,861         3,815,198
      Less Earned Revenues                                                              (14,339)          (82,596)
      Net Program Costs                                                               3,374,522         3,732,602
Social and Environmental Issues
      Intragovernmental                                                                 357,063           301,995
      With the Public                                                                 4,021,570         3,296,720
        Total Costs                                                                   4,378,633         3,598,715
      Less Earned Revenues                                                              (66,842)         (103,951)
      Net Program Costs                                                               4,311,791         3,494,764
Humanitarian Response
      Intragovernmental                                                                 173,977            72,002
      With the Public                                                                   542,815         1,034,835
        Total Costs                                                                     716,792         1,106,837
      Less Earned Revenues                                                              (66,133)           (2,318)
      Net Program Costs                                                                 650,659         1,104,519
Management and Organizational Excellence
      Intragovernmental                                                                      5,388         18,839
      With the Public                                                                       41,022        136,522
        Total Costs                                                                         46,410        155,361
      Less Earned Revenues                                                                    (424)          (592)
      Net Program Costs                                                                     45,986        154,769
Public Diplomacy and Public Affairs
      Intragovernmental                                                                     152             1,738
      With the Public                                                                    34,338            21,054
        Total Costs                                                                      34,490            22,792
      Less Earned Revenues                                                                 (177)              (56)
      Net Program Costs                                                                  34,313            22,736
    Net Costs of Operations                                                          10,553,582         9,993,565




                                                                                                              46
                                                                                                                           Appendix IV


                                                       U.S. Agency for International Development
                                                 COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                    For the Years Ended September 30, 2004 and 2003
                                                                     (in thousands)




                                                                  FY 2004              FY 2004           FY 2003               FY 2003
                                                                                    Credit Program                          Credit Program
                                                                 Budgetary            Financing          Budgetary            Financing

Budgetary Resources

Budget Authority
   Appropriations Received                                  $         9,260,278                      -       10,801,068 $                 -
   Borrowing Authority (Note 20)                                            -                        -              -                  62,886
   Net Transfers                                                      1,812,100                      -         (436,693)                    -
   Other                                                                      -                      -                -                     -
  Total Budget Authority                                             11,072,378                      -       10,364,375                62,886
Unobligated Balance:
   Beginning of Period                                                2,288,520              981,619          1,592,265              798,979
   Net Transfers, Actual                                                 96,959                    -             (1,684)                   -
  Total Unobligated Balance                                           2,385,479              981,619          1,590,581              798,979
Spending Authority from Offsetting Collections:
  Earned                                                                      -                     -
     Collected                                                          906,735               218,325           892,844              208,543
     Receivable from Federal Sources                                       (237)                    -            (5,961)              11,328
  Change in Unfilled Customer Orders                                          -                     -
     Advance Received                                                     4,594                     -              (331)                    -
   Anticipated for Rest of Year, Without Advances                             -                     -                 -                     -
  Subtotal                                                              911,092               218,325           886,552               219,871
Recoveries of Prior Year Obligations                                    140,910                 3,955           158,594                14,180
Permanently Not Available                                            (1,079,492)               (1,184)         (712,773)                 (465)
Total Budgetary Resources                                            13,430,367             1,202,715        12,287,329             1,095,451

Status of Budgetary Resources:

Obligations Incurred Direct (Note 20)                                11,174,333               234,102         9,973,855               113,832
Unobligated Balance, Available                                        2,224,129               968,613         2,172,882               981,619
Unobligated Balance, Unavailable                                         31,905                     -           140,592                     -
Total Status of Budgetary Resources                                  13,430,367             1,202,715        12,287,329             1,095,451

Relationship of Obligations to Outlays:

Obligated Balance, Net, Beginning of Period (Note 20)                10,573,245                 1,597         9,431,741                26,868
Obligated Balance Transferred, Net                                            -                     -             1,819                     -
Obligated Balance, Net, End of Period:                                        -                     -
 Accounts Receivable                                                     (3,691)                    -            (3,832)                    -
 Unfilled Customer Orders From Federal Sources                                -                     -                 -                     -
 Undelivered Orders                                                  11,284,640                10,604         9,209,121                 1,731
 Accounts Payable                                                     1,469,017                   427         1,367,956                  (135)

Outlays:
 Disbursements                                                         8,722,076             220,712          8,680,899               113,597
 Collections                                                          (1,122,466)             (2,595)          (892,551)             (208,543)
 Subtotal                                                              7,599,610             218,117          7,788,348               (94,946)




                                                                                                                              47
                                                                                                              Appendix IV
                                                U.S. Agency for International Development
                                            CONSOLIDATED STATEMENT OF FINANCING
                                             For the years ended September 30, 2004 and 2003
                                                              (in thousands)


                                                                                               2004               2003

Resources Used to Finance Actvities:

     Budgetary Resources Obligated
        Obligations Incurred (Note 20)                                                         11,408,435           9,862,659
              Appropriations transferred to/from other agencies (net)                           1,206,427           1,665,639
         Total Obligations Incurred (Note 21)                                                  12,614,862          11,528,299
             Less: Spending authority from offsetting collections and recoveries (Note 20)     (1,274,282)         (1,278,792)
                    Spending authority transferred to/from other agencies (net)                   172,331             (53,366)
                 Total spending authority from offsetting collections and recoveries           (1,446,613)         (1,332,159)
                                                                                                        -                   -
        Net Obligations                                                                        11,168,250          10,196,140
   Other Resources
        Donated and Credit Program Revenue                                                       (123,505)           (170,456)
        Imputed Financing From Costs Absorbed by Others                                             8,452              13,902

Total Resources Used to Finance Activities                                                     11,053,196          10,039,586

Resources Used to Finance Items not Part of the Net Cost of Operations
     Change in budgetary resources obligated for goods, services and benefits
     ordered, but not yet provided                                                             (1,397,036)         (1,318,994)
     Resources that fund expenses recognized in prior periods                                         3,163                 20
     Budgetary offsetting collections and receipts that do not affect net cost of
     operations
        Credit Program collections which increase liabilities for loan                          1,070,144           1,091,885
        guarantees or allowances for subsidy
        Other                                                                                         (218)              (6,057)
     Resources that finance the aquistion of assets                                                20,159                80,309
Total Resources Used to Finance items not part of net cost of operations                         (303,788)           (152,837)

Total Resources Used to Finance Net Cost of Operations                                         10,749,409           9,886,749

Componenets of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
     Components Requiring or Generating Resources in Future Periods (Note 20):
        Increase in annual leave liability                                                          1,242              2,168
        Upward/Downward reestimates of credit subsidy expense                                    (208,678)            98,115
        Increase in exchange revenue recivable from the public                                     37,031             36,435
     Total                                                                                       (170,405)           136,718

     Components not Requiring or Generating Resources
       Depreciation and Amortization                                                               15,186               6,925
       Revaluation of assets or liabilities                                                          (805)              3,133
       Other                                                                                      (39,802)            (39,960)
     Total                                                                                        (25,421)            (29,902)

Total components of net cost of operations that will not require or generate resources
 in the current period                                                                           (195,827)           106,816

Net Cost of Operations                                                                         10,553,582           9,993,565


                                                                                                                    48
                                                                                                                                                                                           Appendix IV
                                                                          U.S. Agency for International Development
                                                                           CONSOLIDATING BALANCE SHEET
                                                                                  As of September 30, 2004
                                                                                        (in thousands)


                                                  Credit Program                                               Revolving
                                                                     Program Funds      Operating Funds                       Trust Funds       Other Funds          Eliminating Entries         Total
                                                      Funds                                                     Funds
ASSETS
   Intragovernmental
     Fund Balance with Treasury                   $     1,227,679 $      14,163,133 $            368,349 $          1,034 $        33,255 $           61,476 $                         -    $    15,854,926
     Accounts Receivable                                  300,147                 -              804,700                -               -                  -                       (73,679)       1,031,168
     Other Assets                                               -            30,554                  366                -               -                  -                                $        30,920
   Total Intragovernmental                              1,527,826        14,193,687            1,173,415            1,034          33,255             61,476                       (73,679)      16,917,014

    Cash and Other Monetary Assets                             50                 -              257,151                -               -                  -                                        257,201
    Accounts Receivable, Net                               46,927            17,330                1,014                0               -              4,529                               -         69,800
    Loans Receivable, Net                               6,108,252                 -                    -                -               -                  -                                      6,108,252
    Inventory and Related Property                              -            28,551                7,213                -               -                  -                                         35,764
    General Property, Plant, and Equipment, Net                 -               935               81,019                -               -                  -                                         81,954
    Advances and Prepayments                                  160           504,190               51,655            2,300           1,380                  1                                        559,686
 Total Assets                                           7,683,215        14,744,693            1,571,467            3,334          34,635             66,006                       (73,679)      24,029,671

LIABILITIES

   Intragovernmental
     Accounts Payable                                      19,098           40,898                  878               -               -               42,328                       (73,679)          29,523
     Debt                                                 111,081              -                    -                 -               -                  -                                          111,081
     Due to U.S. Treasury                               6,033,925              -                    -                 -               -                  -                                        6,033,925
     Other Liabilities                                    407,959              -                  8,086               -               -                4,529                           -            420,574
   Total Intragovernmental                              6,572,063           40,898                8,964               -               -               46,857                       (73,679)       6,595,103

   Accounts Payable                                        45,708         1,460,177             444,827             1,590           8,176                -                             -          1,960,478
   Loan Guarantee Liability                             1,039,937               -                   -                 -               -                  -                                        1,039,937
   Federal Employees and Veteran's Benefits                   -                 -                24,523               -               -                  -                                           24,523
   Other Liabilities                                        7,810               -               300,324               -            26,468             19,148                                        353,750
   Total Liabilities                                    7,665,518         1,501,075             778,638             1,590          34,644             66,005                       (73,679)       9,973,791
                                                                                                                                                                                         -
   Commitments and Contingencies

 NET POSITION
  Unexpended Appropriations                                42,557        13,209,745             143,085               -               -                  -                                       13,395,387
  Cumulative Results of Operations                        (24,859)           33,873             649,745             1,743                 (9)            -                                          660,493
  Total Net Position                                       17,698        13,243,618             792,830             1,743                 (9)                -                             -     14,055,880

 Total Liabilities and Net Position               $     7,683,216    $   14,744,693   $        1,571,468   $        3,333   $      34,635 $           66,005     $                 (73,679) $    24,029,671




                                                                                                                                      49
                                                                                                                                                                Appendix IV
                                                                 U.S. Agency for International Development
                                                             CONSOLIDATING STATEMENT OF NET POSITION
                                                                  For the period ended September 30, 2004
                                                                               (in thousands)

                                                     Credit Program                                              Revolving
                                                                        Program Funds          Operating Funds                Trust Funds     Other Funds            Total
                                                         Funds                                                    Funds
Beginning Balances                                  $         (58,154) $     11,616,448    $           931,022 $      3,288 $         (251) $          -    $            12,492,353
Prior period adjustments                                          -                 -                      -             -             -               -                        -
Beginning Balances, as adjusted                               (58,154)       11,616,448                931,022        3,288           (251)            -                 12,492,353

 Budgetary Financing Sources:
  Appropriations Received                                    108,114          8,256,500                821,759            -            -              -                   9,186,373
  Appropriations transferred-in/out                           13,386          2,081,554                 27,701            -            -              -                   2,122,641
  Other adjustments (recissions, etc)                         (1,372)           (43,703)                (4,463)           -            -              -                     (49,538)
  Appropriations used                                            -                  -                      -              -            -              -                         -
  Nonexchange revenue                                            -                  -                      -              -            -              -                         -
  Donations and forfeitures of cash                              -                  -                   67,194            -         16,489            -                      83,683
    and cash equivalents                                                                                                                                                        -
  Transfers-in/out without reimbursement                         -                  -                  763,675            -             -             -                     763,675
  Other budgetary financing sources                              -                  -                      -              -             -             -                         -
                                                                                                                                                                                -
 Other Financing Sources:                                                                                                                                                       -
  Donations and forfeitures of property                          -                  -                       -             -            -              -                         -
  Transfers-in/out without reimbursement                       1,823                -                       -             -            -              -                       1,823
  Imputed financing from costs absorbed by others                -                  -                     8,452           -            -              -                       8,452
  Other                                                          -                  -                       -             -            -              -                         -
 Total Financing Sources                                     121,951         10,294,351               1,684,318           -         16,489            -                  12,117,109

 Net Cost of Operations                                      (46,099)        (8,667,181)             (1,822,510)       (1,545)      (16,247)          -                 (10,553,582)

Ending Balances                                     $         17,698 $       13,243,618    $           792,830     $   1,743 $              (9) $     -     $            14,055,880




                                                                                                                         50
                                                                                                                                                                                                                       Appendix IV
                                                                                                U.S. Agency for International Development
                                                                                       CONSOLIDATING STATEMENT OF BUDGETARY RESOURCES
                                                                                                 For the period ended September 30, 2004
                                                                                                              (in thousands)




                                                       Credit Program Funds       Program Funds        Operating Funds        Revolving Funds      Trust Funds     Other Funds         Credit-Financing        Allocations           Total
Budgetary Resources:

Budget Authority                                   $                 176,499 $           9,788,686 $           849,460 $                     - $        18,905 $               - $                     - $            238,828 $       11,072,378
Unobligated Balances - Beginning of Period                           368,508             1,785,630              37,384                   2,694           1,995             -                     981,619              189,268          3,367,098
Spending Authority from Offsetting Collections                       851,779                22,640              29,148                   4,930             -               -                     218,325                2,595          1,129,417
Recoveries of Prior-Year Obligations                                   2,709               103,085              17,583                     115             703             -                       3,955               16,715            144,865
Temporarily Not Available Pursuant to Public Law                         -                     -                   -                       -               -               -                         -                    -                  -
Permanently Not Available                                         (1,031,253)              (43,703)             (4,462)                    -               -               -                      (1,184)                 (74)        (1,080,676)
Total Budgetary Resources                                            368,242            11,656,338             929,113                   7,739          21,603             -                   1,202,715              447,332         14,633,082

Status of Budgetary Resources:

Obligations Incurred                                                189,933              9,776,106             846,333                   5,255          19,576             -                     234,102              337,130         11,408,435
Unobligated Balances-Available                                      178,048              1,860,642              80,734                   2,484           2,027             -                     968,613              100,194          3,192,742
Unobligated Balances-Unavailable                                        261                 19,590               2,046                     -               -               -                         -                 10,008             31,905
Total Status of Budgetary Resources                                 368,242             11,656,338             929,113                   7,739          21,603             -                   1,202,715              447,332         14,633,082

Relationship of Obligations to Outlays:

Obligated Balance, Net, Beginning of Period                           (5,842)            9,082,772             175,584                     751          21,259             -                      1,597             1,298,721         10,574,842
Obligated Balance, Transferred, Net                                      -                     -                   -                       -               -               -                        -                     -                  -
Obligated Balance, Net, End of Period                                 34,791            11,218,291             196,964                   1,252          31,229             -                     11,031             1,267,439         12,760,997

Outlays:

Disbursements                                                        146,611             7,537,501             807,589                    4,638          8,903             -                    220,712               216,834           8,942,788
Collections                                                         (851,798)              (22,639)            (27,475)                  (2,229)           -               -                   (218,325)               (2,595)         (1,125,061)
Less: Offsetting Receipts                                                -                     -                   -                        -              -               -                        -                     -                   -
                                                                                                                                                                                                                                                0
Net Outlays                                        $                (705,187) $          7,514,862 $           780,114    $              2,409 $         8,903    $            -   $              2,387    $          214,239    $      7,817,727




                                                                                                                                                             51
                                                                                                                                                                                            Appendix IV
                                                                                            U.S. Agency for International Development
                                                                                         CONSOLIDATING STATEMENT OF FINANCING
                                                                                             For the period ended September 30, 2004
                                                                                                          (in thousands)



                                                                                          Credit           Program          Operating        Revolving            Trust             Other        Total
Resources Used to Finance Activities:

     Budgetary Resources Obligated
         Obligations Incurred                                                                 424,035        10,113,235           846,333           5,255             19,577                -     11,408,435
          Appropriations transferred to/from other agencies (net)                                 -             256,235           950,192             -                  -                  -      1,206,427
         Total Obligations Incurred                                                           424,035        10,369,470         1,796,525           5,255             19,577                -     12,614,862
            Less: Spending authority from offsetting collections and recoveries            (1,076,768)         (145,035)          (46,731)          (5,045)             (703)               -     (1,274,282)
               Spending authority transferred to/from other agencies (net)                        -              14,218          (186,549)             -                 -                  -       (172,331)
            Total Spending authority from offsetting collections and recoveries            (1,076,768)         (130,817)         (233,280)          (5,045)             (703)               -     (1,446,613)
         Net Obligations                                                                     (652,733)       10,238,653         1,563,245              210            18,874                -     11,168,249
   Other Resources
         Donated and Credit Program Revenue                                                  (123,611)               (24)             130                -                   -              -       (123,505)
         Imputed Financing From Costs Absorbed by Others                                          -                  -              8,452                -                   -              -          8,452
         Net other resources used to finance activities                                      (123,611)               (24)           8,582                -                   -              -       (115,053)

Total resources used to finance activities                                                   (776,344)       10,238,629         1,571,827                210          18,874                -     11,053,196

Resources Used to Finance Items not Part of the Net Cost of Operations:
     Change in budgetary resources obligated for goods, services and benefits
     ordered but not yet provided                                                             (40,013)        (1,556,081)         200,094           1,295                 (2,331)           -     (1,397,036)
     Resources that fund expenses recognized in prior periods                                      -                 -              3,163                -                   -              -            3,163
                                                                                                   -                 -                -                  -                   -              -
     Budgetary offsetting collections and receipts that do not affect net cost of                  -                 -                -                  -                   -              -
     operations                                                                                    -                 -                -                  -                   -              -
         Credit program collections which increase liabilities for loan                           -                  -                  -                -                   -              -
         guarantees or allowances for subsidy                                               1,070,104                -                  -                 40                 -              -      1,070,144
         Other                                                                                     -                -                (218)               -                   -              -            (218)
                                                                                                   -                -                 -                  -                   -              -
     Resources that finance the acquisition of assets                                              974          (13,679)           32,864                -                   -              -        20,159
Total resources used to finance items not part of net cost of operations                    1,031,065         (1,569,760)         235,903           1,335                 (2,331)           -       (303,788)
                                                                                                                                                                                                         -
Total resources used to finance net cost of operations                                        254,721         8,668,869         1,807,730           1,545             16,543                -     10,749,408

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
     Components Requiring or Generating Resources in Future Periods:
         Increase in annual leave liability                                                       122                -              1,416                -                 (296)            -          1,242
         Upward/Downward reestimates of credit subsidy expense                               (208,678)               -                -                  -                  -               -       (208,678)
         Other                                                                                    -                  -             37,031                -                  -               -         37,031
     Total components of net cost of operations that will require or generate
     resources in future periods                                                             (208,556)               -             38,447                -                 (296)            -       (170,405)
     Components not Requiring or Generating Resources
         Depreciation and Amortization                                                             -                 262           14,924                -                   -              -         15,186
         Revaluation of assets or liabilities                                                      -                 -               (805)               -                   -              -           (805)
         Other                                                                                     (66)           (1,950)         (37,786)               -                   -              -        (39,802)
     Total components of net cost of operations that will not require or generate
     resources                                                                                     (66)           (1,688)         (23,667)               -                   -              -        (25,421)

Total components of net cost of operations that will not require or generate resources
 in the current period                                                                       (208,622)            (1,688)          14,780                -                 (296)            -       (195,826)

Net Cost of Operations                                                                         46,099         8,667,181         1,822,510           1,545             16,247                -     10,553,582


                                                                                                                                                             52
                                                                                                                                                                     Appendix IV
                                                                             U.S. Agency for International Development
                                                                          CONSOLIDATING STATEMENT OF NET COSTS
                                                                              For the period ended September 30, 2004
                                                                                           (in thousands)


                                                                                                                                                           IntraAgency
                                                                            Credit       Operating     Other       Program      Operating    Trust                            Total
   Goal                                                                                                                                                    Elimination
Regional Stability
   Close, strong, and effective U.S. ties with allies
     Intragovernmental                                                               -        1,904            -         700            1              -               (6)             2,599
     With the Public                                                                 -       10,435            -      62,069           24            108             (152)            72,484
       Total Costs                                                                   -       12,339            -      62,769           25            108             (158)            75,083
     Less Earned Revenues                                                            -         (183)           -        (304)         (15)             -               64               (438)
     Net Program Costs                                                               -       12,156            -      62,465           10            108              (94)            74,645
   Existing and emergent regional conflicts are contained or
   resolved                                                                                                                                                                              -
     Intragovernmental                                                               -        2,998            -       7,584            2              -              (22)          10,562
     With the Public                                                                 -       16,432            -     553,180           38            171           (1,196)         568,625
       Total Costs                                                                   -       19,430            -     560,764           40            171           (1,218)         579,187
     Less Earned Revenues                                                            -         (287)           -        (645)         (23)             -              122             (833)
     Net Program Costs                                                               -       19,143            -     560,119           17            171           (1,096)         578,354
Counterterrorism                                                                                  -            -           -            -              -                -                -
   Coordinated International prevention and response to terrorism                                 -            -           -            -              -                -                -
      Intragovernmental                                                              -            -            -      16,325            -              -              (34)          16,291
      With the Public                                                                             -            -           -            -              -                -                -
        Total Costs                                                                  -            -            -      16,325            -              -              (34)          16,291
      Less Earned Revenues                                                                        -            -           -            -              -                -                -
      Net Program Costs                                                              -            -            -      16,325            -              -              (34)          16,291
    Stable political and economic conditions                                                      -            -           -            -              -                -                -
      Intragovernmental                                                              -          197            -         117            -              -               (1)             313
      With the Public                                                                -        1,080            -     112,059            2             11             (237)         112,915
        Total Costs                                                                  -        1,277            -     112,176            2             11             (238)         113,228
      Less Earned Revenues                                                           -          (19)           -         (41)          (2)             -                8              (54)
      Net Program Costs                                                              -        1,258            -     112,135            -             11             (230)         113,174
International Crime and Drugs                                                                     -            -           -            -              -                -                -

   International trafficking in drugs, persons, and other illicit goods                           -            -           -            -              -                -                 -
     Intragovernmental                                                               -        1,689            -       2,702            1              -               (9)            4,383
     With the Public                                                                 -        9,261            -      63,476           21             96             (153)           72,701
       Total Costs                                                                   -       10,950            -      66,178           22             96             (162)           77,084
     Less Earned Revenues                                                            -         (162)           -        (163)         (13)             -               43              (295)
     Net Program Costs                                                               -       10,788            -      66,015            9             96             (119)           76,789
Democracy and Human Rights                                                                        -            -           -            -              -                -                 -
   Develop transparent and accountable democratic institutions                                    -            -           -            -              -                -                 -
     Intragovernmental                                                               -       17,398            -         559            9              -              (38)           17,928
     With the Public                                                                 -       95,372            -   1,130,065          219            990           (2,574)        1,224,072
       Total Costs                                                                   -      112,770            -   1,130,624          228            990           (2,612)        1,242,000
     Less Earned Revenues                                                            -       (1,669)           -      (2,237)        (133)             -              517            (3,522)
     Net Program Costs                                                               -      111,101            -   1,128,387           95            990           (2,095)        1,238,478
   Universal standards protect human rights                                                       -            -           -            -              -                -                 -
     Intragovernmental                                                               -        2,030            -         255            1              -               (5)            2,281
     With the Public                                                                 -       11,130            -      25,371           26            116              (77)           36,566
       Total Costs                                                                   -       13,160            -      25,626           27            116              (82)           38,847
     Less Earned Revenues                                                            -         (195)           -         (95)         (16)             -               39              (267)
     Net Program Costs                                                               -       12,965            -      25,531           11            116              (43)           38,580
Economic Prosperity and Security                                                                  -            -           -            -              -                -                 -
   Enhanced food security and agricultural development                                            -            -           -            -              -                -                 -
     Intragovernmental                                                               -       12,054            -      19,572            6              -              (66)           31,566
     With the Public                                                                 -       66,077            -     275,287          152            686             (718)          341,484
       Total Costs                                                                   -       78,131            -     294,859          158            686             (784)          373,050
     Less Earned Revenues                                                            -       (1,156)           -        (718)         (92)             -              251            (1,715)
     Net Program Costs                                                               -       76,975            -     294,141           66            686             (533)          371,335
   Increased trade and investment                                                                 -            -           -            -              -                -                 -
     Intragovernmental                                                               -        8,438            -      15,933            4              -              (51)           24,324
     With the Public                                                                 -       46,254            -     206,863          106            480             (532)          253,171
       Total Costs                                                                   -       54,692            -     222,796          110            480             (583)          277,495
     Less Earned Revenues                                                            -         (809)           -        (676)         (65)             -              198            (1,352)
     Net Program Costs                                                               -       53,883            -     222,120           45            480             (385)          276,143

   Institutions, laws, and policies foster private sector led growth                              -            -           -            -           -                   -                 -
     Intragovernmental                                                          6,305        21,625            -      24,174           11           -                (109)           52,006
     With the Public                                                              652       118,543            -   2,416,193          272       1,231              (5,324)        2,531,567
       Total Costs                                                              6,957       140,168            -   2,440,367          283       1,231              (5,433)        2,583,573
     Less Earned Revenues                                                      (5,067)       (2,074)           -      (4,869)        (166)          -               1,559           (10,617)
     Net Program Costs                                                          1,890       138,094            -   2,435,498          117       1,231              (3,874)        2,572,956
   Secure and stable financial and energy markets                                                 -            -           -            -           -                   -                 -
     Intragovernmental                                                               -        6,347            -       4,272            3           -                 (22)           10,600
     With the Public                                                                 -       34,795            -     109,210           80         361                (303)          144,143
       Total Costs                                                                   -       41,142            -     113,482           83         361                (325)          154,743
     Less Earned Revenues                                                            -         (609)           -         (93)         (49)          -                  96              (655)
     Net Program Costs                                                               -       40,533            -     113,389           34         361                (229)          154,088
Social and Environmental Issues                                                                   -            -           -            -           -                   -                 -
   Broader access to quality education with an emphasis on
   primary school completion                                                                      -            -           -            -              -                -                -
     Intragovernmental                                                               -       17,454            -      28,395            9              -              (96)          45,762
     With the Public                                                                 -       95,681            -     423,604          219            994           (1,092)         519,406
       Total Costs                                                                   -      113,135            -     451,999          228            994           (1,188)         565,168
     Less Earned Revenues                                                            -       (1,674)           -        (699)        (134)             -              321           (2,186)
     Net Program Costs                                                               -      111,461            -     451,300           94            994             (867)         562,982




                                                                                                                                                                             53
USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS                              Appendix IV
           NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  A. Basis of Presentation

  These financial statements report USAID’s financial position and results of operations.
  They have been prepared using USAID’s books and records in accordance with Agency
  accounting policies, the most significant of which are summarized in this note. The
  statements are presented in accordance with the applicable form and content requirements
  of the Office of Management and Budget (OMB) Bulletin 01-09, Form and Content of
  Agency Financial Statements, and the Government Management Reform Act of 1994.

  USAID accounting policies follow generally accepted accounting principles for the Federal
  government, as recommended by the Federal Accounting Standards Advisory Board
  (FASAB). The FASAB has been recognized by the American Institute of Certified Public
  Accountants (AICPA) as the official accounting standard set for the Federal government.
  These standards have been agreed to, and published by the Director of the Office of
  Management and Budget, the Secretary of the Treasury, and the Comptroller General.

  B. Reporting Entity

  Established in 1961 by President John F. Kennedy, USAID is the independent U.S.
  Government agency that provides economic development and humanitarian assistance to
  advance United States economic and political interests overseas.

  Programs

  The financial statements reflect the various program activities, shown by appropriation in
  the financial statements, which include such programs as the Iraq Relief and Reconstruction
  Fund, Economic Support Fund, Development Assistance, Assistance for the New
  Independent States of the Former Soviet Union, Special Assistance Initiatives, International
  Disaster Assistance, Child Survival and Disease, Transition Initiatives, and Direct and
  Guaranteed Loan Programs. This classification is consistent with the Budget of the United
  States.

  Iraq Relief and Reconstruction Fund

  This new fund supports necessary expenses related to providing humanitarian assistance in
  and around Iraq and to carrying out the purposes of the Foreign Assistance Act of 1961 for
  rehabilitation and reconstruction in Iraq. These include costs of: (1) water/sanitation
  infrastructure; (2) feeding and food distribution; (3) supporting relief efforts related to
  refugees, internally displaced persons, and vulnerable individuals, including assistance




                                                                                             54
USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS                                  Appendix IV


    NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

  for families of innocent Iraqi civilians who suffer losses as a result of military operations;
  (4) electricity; (5) healthcare; (6) telecommunications; (7) economic and financial policy;
  (8) education; (9) transportation; (10) rule of law and governance; (11) humanitarian de-
  mining; and (12) agriculture.

  Economic Support Fund

  Programs funded through this account provide economic assistance to select countries in
  support of efforts to promote stability and U.S. security interests in strategic regions of the
  world.

  Development Assistance

  This program provides economic resources to developing countries with the aim of
  bringing the benefits of development to the poor. The program promotes broad-based, self-
  sustaining economic growth and supports initiatives intended to stabilize population
  growth, protect the environment and foster increased democratic participation in
  developing countries. The program is concentrated in those areas in which the United
  States has special expertise and which promise the greatest opportunity for the poor to
  better their lives.

  Assistance for the New Independent States of the Former Soviet Union

  This account provides funds for a program of assistance to the independent states that
  emerged from the former Soviet Union. These funds support U.S. foreign policy goals of
  consolidating improved U.S. security; building a lasting partnership with the New
  Independent States; and providing access to each other’s markets, resources, and expertise.

  Special Assistance Initiatives

  This program provides funds to support special assistance activities. The majority of
  funding for this program was for democratic and economic restructuring in Central and
  Eastern European countries consistent with the objectives of the Support for East European
  Democracy (SEED) Act. All SEED Act programs support one or more of the
  following strategic objectives: promoting broad-based economic growth with an emphasis
  on privatization, legal and regulatory reform and support for the emerging private sector;
  encouraging democratic reforms; and improving the quality of life including protecting the
  environment and providing humanitarian assistance.




                                                                                        55
USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS                               Appendix IV
    NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

  International Disaster Assistance

  Funds for the International Disaster Assistance Program provide relief, rehabilitation, and
  reconstruction assistance to foreign countries struck by disasters such as famines, floods,
  hurricanes and earthquakes. The program also provides assistance in disaster preparedness,
  and prevention and mitigation.


  Child Survival and Disease

  This program provides economic resources to developing countries to support programs to
  improve infant and child nutrition, with the aim of reducing infant and child mortality rates;
  to reduce HIV transmission and the impact of the HIV/AIDS pandemic in developing
  countries; to reduce the threat of infectious diseases of major public health importance such
  as polio, and malaria; and to expand access to quality basic education for girls and women.


  Transition Initiatives

  This account funds humanitarian programs that provide post-conflict assistance to victims
  of natural and man-made disasters. Until FY 2001, this type of assistance was funded
  under the International Disaster Assistance account.

  Direct and Guaranteed Loans:

  Direct Loan Program

  These loans are authorized under Foreign Assistance Acts, various predecessor agency
  programs, and other foreign assistance legislation. Direct Loans are issued in both U.S.
  dollars and the currency of the borrower. Foreign currency loans made “with maintenance
  of value” place the risk of currency devaluation on the borrower, and are recorded in
  equivalent U.S. dollars. Loans made “without maintenance of value” place the risk of
  devaluation on the U.S. Government, and are recorded in the foreign currency of the
  borrower.




                                                                                              56
USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS                              Appendix IV

   NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

  Urban and Environmental Program

  The Urban and Environmental (UE) program, formerly the Housing Guarantee Program,
  extends guaranties to U.S. private investors who make loans to developing countries to
  assist them in formulating and executing sound housing and community development
  policies that meet the needs of lower income groups.

  Micro and Small Enterprise Development Program

  The Micro and Small Enterprise Development (MSED) Program supports private sector
  activities in developing countries by providing direct loans and loan guarantees to support
  local micro and small enterprises. The MSED program had one new loan guarantee for FY
  2004. Although the MSED program is still active, the bulk of USAID’s new loan guarantee
  activity is handled through the Development Credit Authority (DCA) program.

  Israeli Loan Guarantee Program

  Congress enacted the Israeli Loan Guarantee Program in Section 226 of the Foreign
  Assistance Act to support the costs for immigrants resettling to Israel from the former
  Soviet Union, Ethiopia, and other countries. Under this program, the U.S. Government
  guaranteed the repayment of up to $10 billion in loans from commercial sources, to be
  borrowed in $2 billion annual increments. Borrowing was completed under the program
  during Fiscal Year 1999, with approximately $9.2 billion being guaranteed. Guarantees are
  made by USAID on behalf of the U.S. Government, with funding responsibility and basic
  administrative functions guarantees for Israel, not to exceed $9 billion and $1.3 billion in
  guarantees were resting with USAID. In FY 2003, Congress authorized a second portfolio
  of loan issued under this portfolio during FY 2003.

  Ukraine Guarantee Program

  The Ukraine Export Credit Insurance Program was established with the support of the
  Export-Import Bank of the U.S. to assist Ukrainian importers of American goods. The
  program commenced operations in Fiscal Year 1996 and expired in Fiscal Year 1999. The
  Ukraine Financing Account was closed out in FY 2002.

  Development Credit Authority

  The first obligations for USAID’s new Development Credit Authority (DCA) were made in
  FY 1999. DCA allows missions and other offices to use loans and loan guarantees to
  achieve their development objectives when it can be shown that: 1) the project generates
  enough revenue to cover the debt service including




                                                                                     57
USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS                                Appendix IV
  NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

  USAID fees, 2) there is at least 50% risk-sharing with a private-sector institution, and 3)
  the DCA guarantee addresses a financial market failure in-country and does not “crowd-
  out” private sector lending. DCA can be used in any sector and by any USAID operating
  unit whose project meets the DCA criteria. DCA projects are approved by the Agency
  Credit Review Board and the Chief Financial Officer.

  Fund Types

  The accompanying consolidated financial statements for USAID include the accounts of all
  funds under USAID’s control. Most of the fund accounts relate to general fund
  appropriations. USAID also has special fund, revolving fund, trust fund, deposit funds,
  capital investment fund, receipt account, and budget clearing accounts.

  General fund appropriations and the Special fund are used to record financial transactions
  under Congressional appropriations or other authorization to spend general revenue.

  Revolving funds are established by law to finance a continuing cycle of operations, with
  receipts derived from such operations usually available in their entirety for use by the fund
  without further action by Congress.

  Trust funds are credited with receipts generated by the terms of the trust agreement or
  statute. At the point of collection, these receipts are unavailable, depending upon statutory
  requirements, or available immediately.

  The capital investment fund contains no year funds to provide the Agency with greater
  flexibility to manage investments in technology systems and facility construction that the
  annual appropriation for Operating Expenses does not allow.

  Deposit funds are established for (1) amount received for which USAID is acting as a fiscal
  agent or custodian, (2) unidentified remittances, (3) monies withheld from payments for
  goods or services received, and (4) monies held waiting distribution on the basis of legal
  determination.

  C. Basis of Accounting

  Transactions are recorded on both an accrual and budgetary basis. Under the accrual basis,
  revenues are recognized when earned and expenses are recognized when a liability is
  incurred, without regard to receipt or payment of cash. Budgetary accounting facilitates
  compliance with legal constraints on, and controls of, the use of federal funds.




                                                                                                  58
USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS                               Appendix IV
    NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

  The accompanying Balance Sheet, Statement of Net Cost, and Statement of Changes in Net
  Position have been prepared on an accrual basis. The Statement of Budgetary Resources
  has been prepared in accordance with budgetary accounting rules. Finally, the
  Statement of Financing has been prepared to reconcile budgetary to financial (proprietary)
  accounting information.

  D. Budgets and Budgetary Accounting

  The components of USAID’s budgetary resources include current budgetary authority (that
  is, appropriations and borrowing authority) and unobligated balances remaining from multi-
  year and no-year budget authority received in prior years. Budget authority is the
  authorization provided by law to enter into financial obligations that result in immediate or
  future outlays of federal funds. Budgetary resources also include reimbursement and other
  income (that is, spending authority from offsetting collections credited to an appropriation
  of fund account) and adjustments (that is, recoveries of prior year obligations).

  Unobligated balances associated with appropriations that expire at the end of the fiscal year
  remain available for obligation adjustments, but not new obligations, until that account is
  canceled. When accounts are canceled five years after they expire, amounts are not
  available for obligations or expenditure for any purpose and are returned to Treasury.

  Pursuant to Section 511 of USAID’s Appropriations Act for certain purposes under the
  Foreign Assistance Act of 1961, as amended, shall remain available for obligation for an
  extended period if such funds are initially obligated within their initial period of
  availability.

  E. Revenues and Other Financing Sources

  USAID receives the majority of its funding through congressional appropriations --annual,
  multi-year, and no-year appropriations -- that may be used within statutory limits.
  Appropriations are recognized as revenues at the time the related program or administrative
  expenses are incurred. Appropriations expended for capitalized property and equipment are
  not recognized as expenses. In addition to funds warranted directly to
  USAID, the agency also receives allocation transfers from the U.S. Department of
  Agriculture (USDA) Commodity Credit Corporation, the Executive Office of the President,
  and the Department of State.

  Additional financing sources for USAID’s various credit programs and trust funds include
  amounts obtained through collection of guaranty fees, interest income on rescheduled
  loans, penalty interest on delinquent balances, permanent indefinite




                                                                                     59
USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS                                Appendix IV
    NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

  borrowing authority from U.S. Treasury, proceeds from the sale of overseas real property
  acquired by USAID, and advances from foreign governments and international
  organizations.

  Revenues are recognized as financing sources to the extent that they were payable to
  USAID from other agencies, other governments and the public in exchange for goods and
  services rendered to others.

  F. Fund Balances with the U.S. Treasury

  Cash receipts and disbursements are processed by the U.S. Treasury. The balances with
  Treasury are primarily appropriated funds that are available to pay current liabilities and
  finance authorized purchase commitments, but they also include revolving, deposit, and
  trust funds.

  G. Foreign Currency

  The Direct Loan Program has foreign currency funds, which are used to disburse loans in
  certain countries. Those balances are reported at the U.S. dollar equivalents using the
  exchange rates prescribed by the U.S. Treasury. A gain or loss on translation is recognized
  for the change in valuation of foreign currencies at year-end. Additionally, some USAID
  host countries contribute funds for the overhead operation of the host mission and the
  execution of USAID programs. These funds are held in trust and reported in U.S. dollar
  equivalents on the balance sheet and statement of net costs.

  H. Accounts Receivable

  Accounts receivable consist of amounts due mainly from foreign governments but also
  from other Federal agencies and private organizations. USAID regards amounts due from
  other Federal agencies as 100 percent collectible. The Agency establishes an
  allowance for uncollectible accounts receivable for non-loan or revenue generating sources
  that have not been collected for a period of over one year.

  I. Loans Receivable

  Loans are accounted for as receivables after funds have been disbursed. For loans
  obligated before October 1, 1991 (the pre-credit reform period), loan principal, interest, and
  penalties receivable are reduced by an allowance for estimated uncollectible amounts. The
  allowance is estimated based on a net present value method prescribed by OMB that takes
  into account country risk and projected cash flows.




                                                                                                60
USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS                               Appendix IV
       NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

  For loans obligated on or after October 1, 1991, the loans receivable are reduced by an
  allowance equal to the net present value of the cost to the USG of making the loan. This
  cost, known as “subsidy”, takes into account all cash inflows and outflows associated with
  the loan, including the interest rate differential between the loans and Treasury borrowing,
  the estimated delinquencies and defaults net of recoveries, and offsets from
  fees and other estimated cash flows. This allowance is re-estimated when necessary and
  changes reflected in the operating statement.

  Loans have been made in both U.S. dollars and foreign currencies. Loans extended in
  foreign currencies can be with or without “Maintenance of Value” (MOV). Those with
  MOV place the currency exchange risk upon the borrowing government; those without
  MOV place the risk on USAID. Foreign currency exchange gain or loss is recognized on
  those loans extended without MOV, and reflected in the net credit programs receivable
  balance.

  Credit program receivables also include origination and annual fees on outstanding
  guarantees, interest on rescheduled loans and late charges. Claims receivables (subrogated
  and rescheduled) are due from foreign governments as a result of defaults for pre-1992
  guaranteed loans. Receivables are stated net of an allowance for uncollectible accounts,
  determined using an OMB approved net present value default methodology.

  While estimates of uncollectible loans and interest are made using methods prescribed by
  OMB, the final determination as to whether a loan is collectible is also affected by actions
  of other U.S. Government agencies.

  J.      Advances and Prepayments

  Funds disbursed in advance of incurred expenditures are recorded as advances. Most
  advances consist of funds disbursed under letters of credit to contractors and grantees. The
  advances are liquidated and recorded as expenses upon receipt of expenditure reports from
  the recipients.

  K. Inventory and Related Property

  USAID’s inventory and related property is comprised of operating materials and supplies.
  Some operating materials and supplies are held for use and consist mainly of computer
  paper and other expendable office supplies not in the hands of the user. USAID also has
  materials and supplies in reserve for foreign disaster assistance stored at strategic sites
  around the world. These consist of tents, vehicles, and water purification units. The
  Agency also has birth control supplies stored at several sites.




                                                                                      61
USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS                                Appendix IV


    NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

  USAID’s office supplies are deemed items held for use because they are tangible personal
  property to be consumed in normal operations. Agency supplies held in reserve for future
  use are not readily available in the market, or there is more than a remote chance that the
  supplies will be needed, but not in the normal course of operations. Their
  valuation is based on cost and they are not considered “held for sale”. USAID has no
  supplies categorizable as excess, obsolete, or unserviceable operating materials and
  supplies.

  L. Property, Plant and Equipment

  USAID capitalizes all property, plant and equipment that has an acquisition cost of $25,000
  or greater and a useful life of two years or more. Acquisitions that do not meet these criteria
  are recorded as operating expenses. Assets are capitalized at historical cost and depreciated
  using the straight-line method. Real property is depreciated over 20 years, nonexpendable
  personal property is depreciated over 3 to 5 years, and capital leases are depreciated
  according to the terms of the lease. The Agency operates land, buildings, and equipment
  that are provided by the General Services Administration. Rent for this property is
  expensed. Internal use software that has development costs of $300,000 or greater is
  capitalized. Deferred maintenance amounts are immaterial with respect to the financial
  statements.

  M. Liabilities

  Liabilities represent the amount of monies or other resources that are likely to be paid by
  USAID as the result of transactions or events that have already occurred. However, no
  liability can be paid by the Agency without an appropriation or borrowing authority.
  Liabilities for which an appropriation has not been enacted are therefore classified as
  liabilities not covered by budgetary resources (unfunded liabilities), and there is no
  certainty that the appropriations will be enacted. Also, these liabilities can be abrogated by
  the U.S. Government, acting in its sovereign capacity.

  N. Liabilities for Loan Guarantees

  The Credit Reform Act (CRA) of 1990, which became effective on October 1, 1991, has
  significantly changed the manner in which USAID’s loan programs finance their activities.
  The main purpose of CRA was to more accurately measure the cost of Federal credit
  programs and to place the cost of such programs on a budgetary basis equivalent to other
  Federal spending. Consequently, commencing in fiscal 1992, USAID cannot make new
  loans or guarantees without an appropriation available to fund the cost of making the loan
  or guarantee. This cost is known as “subsidy”.




                                                                                                62
USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS                                Appendix IV
    NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

  For USAID’s loan guarantee programs, when guarantee commitments are made, an
  obligation for subsidy cost is recorded in the program account. This cost is based on the
  net present value of the estimated net cash outflows to be paid by the Program as a result of
  the loan guarantees, except for administrative costs, less the net present value of all
  cash inflows to be generated from those guarantees. When the loans are disbursed, the
  subsidy cost is disbursed from the program account to a financing account.

  For loan guarantees made before the CRA (pre-1992), the liability for loan guarantees
  represents an unfunded liability. Footnote 6 presents the unfunded amounts separate from
  the post-1991 liabilities. The amount of unfunded liabilities also represents a future
  funding requirement for USAID. The liability is calculated using a reserve methodology
  that is similar to OMB prescribed method for post-1991 loan guarantees.

  O. Annual, Sick, and Other Leave

  Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each
  year, the balance in the accrued annual leave account is adjusted to reflect current pay rates.
  To the extent that current or prior year appropriations are not available to fund annual leave
  earned but not taken, funding will be obtained from future financing sources. Sick leave
  and other types of leave are expensed as taken.

  P. Retirement Plans and Post Employment Benefits

  USAID recognizes its share of the cost of providing future pension benefits to eligible
  employees over the period of time the employees provide the related services. The pension
  expense recognized in the financial statements equals the current service cost for USAID
  employees for the accounting period less the amount contributed by the
  employees. The measurement of the service cost requires the use of an actuarial cost
  method and assumptions. OPM administers these benefits and provides the factors that
  USAID applies to report the cost. The excess of the pension expense over the amount
  contributed by USAID and employees represents the amount being financed directly
  through the Civil Service Retirement and Disability Fund administered by OPM. This cost
  is considered imputed cost to USAID.

  USAID recognizes a current-period expense for the future cost of post retirement health
  benefits and life insurance for its employees while they are still working. USAID accounts
  for and reports this expense in its financial statements in a manner similar to that used for
  pensions, with the exception that employees and USAID do not make contributions to fund
  these future benefits.

  Federal employee benefit costs paid by OPM and imputed by USAID are reported on the
  Statement of Financing and the Statement of Net Cost.




                                                                                       63
USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS                                Appendix IV
       NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued


  Q. Net Position

  Net position is the residual difference between assets and liabilities. It is composed of
  unexpended appropriations and cumulative results of operations.

• Unexpended appropriations are the portion of the appropriations represented by undelivered
  orders and unobligated balances.

• Cumulative results of operations are also part of net position. This account reflects the net
  difference between (1) expenses and losses and (2) financing sources, including
  appropriations, revenues and gains, since the inception of the activity.

  R. Non-entity Assets

  Non-entity fund balances are amounts in Deposit Fund accounts. These include such items
  as: funds received from outside sources where the government acts as fiscal agent, monies
  the government has withheld awaiting distribution based on legal determination, and
  unidentified remittances credited as suspense items outside the budget. For USAID, non-
  entity assets are minimal in amount and as reflected in Note 3, composed solely of accounts
  receivables, net of allowances.

  S.      Agency Costs

  USAID costs of operations are comprised of program and operating expenses.
  USAID/Washington program expenses by goal are obtained directly from Phoenix, the
  Agency general ledger. Mission related program expenses by goal area are obtained from
  the Mission Accounting and Control system (MACS). A cost allocation model is used to
  distribute operating expenses, including Management Bureau, Global Development
  Alliance, Trust Funds and Support Offices costs to specific goals. Expenses related to
  Credit Reform and Revolving Funds are directly applied to specific agency goals based on
  their objectives.




                                                                                                  64
                                                                     Appendix IV



USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 2. FUND BALANCES WITH TREASURY (In Thousands)

Fund Balances with Treasury as of September 30, 2004 and 2003 consisted of the following:

Fund Balances                                          2004              2003

Trust Funds                                             $33,255            $23,253
Revolving Funds                                       1,435,616          1,312,955
Appropriated Funds                                   14,324,552         12,894,164
Other Funds                                              66,503            (14,958)

Total                                               $15,859,926        $14,215,414

Status of Fund Balance:
                                                       2004              2003
Unobligated Balance
    Available                                        $1,193,906         $3,260,019
    Unavailable                                          18,142              7,294
Obligated Balance Not Yet Disbursed                  14,647,878         10,948,101
Total                                               $15,859,926        $14,215,414


As of September 30, 2004 there was a cash reconciliation difference of $94.8 million
between USAID and the Department of Treasury’s Fund Balances. The difference as of
September 30, 2003 was $34.6 million. For FY 2004 and FY 2003 reporting purposes,
USAID adjusted its fund balance by these differences to equal the Department of Treasury’s
fund balance. By adjusting USAID’s fund balance to equal Treasury’s fund balance, there is
consistency between various published reports. Also, based on past experience, the
Department of Treasury’s balances are more accurate and the differences are usually cleared
when USAID processes the required disbursements.
                                                        p          p
accounts and the cash differences remain identified as such. USAID is currently performing
a reconciliation of the $94.8 million total amount in these accounts and will make
adjustments accordingly.




                                                                                      65
                                                                                  Appendix IV


USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 3. ACCOUNTS RECEIVABLE, NET (In Thousands)

The primary components of USAID’s accounts receivable as of September 30, 2004 are as
follows:

                                               Receivable     Allowance    Receivable Receivable
                                                 Gross        Accounts        Net     Net
                                                                2004                      2003

Entity
         Intragovernmental
             Appropriation Reimbursements
                from Federal Agencies         $       225       N/A        $        225 $         209
             Accounts Receivable
                from Federal Agencies Disburs     300,131       N/A              300,131
             Less Intra-Agency Receivables        (73,679)                       (73,679)
                Receivable from USDA              804,491       N/A              804,491    1,133,865
         Total Intragovernmental                1,031,168       N/A            1,031,168    1,134,074

             Accounts Receivable                    72,144       (6,873)         65,271         61,983

         Total Entity                            1,103,313       (6,873)       1,096,440    1,196,057

Total Non-Entity                                     4,848         (320)           4,528         4,330

Total Receivables                             $ 1,108,161 $      (7,193) $ 1,100,968 $      1,200,387


Reconciliation of Uncollectible Amounts (Allowance Accounts)

                                                  2004          2003
Beginning Balance                                   $9,501      $14,346
Additions                                             (341)       1,636
Reductions                                          (1,967)      (6,481)
Ending Balance                                      $7,193       $9,501




                                                                                                  66
                                                                                      Appendix IV


USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 3. ACCOUNTS RECEIVABLE, NET (In Thousands) - Continued

Entity intragovernmental accounts receivable consist of amounts due from other U.S.
Government agencies. No allowance has been established for the intragovernmental
accounts receivable, which are considered to be 100 percent collectible. Disbursing
Authority Receivable from USDA consists of obligational authority from the U.S.
Department of Agriculture’s Commodity Credit Corporation. The authority is for payment
of transportation costs incurred by USAID associated with the shipment of Title II and III
commodities; Farmer-to-Farmer Technical Assistance Programs; and for assistance to
private voluntary organizations, cooperatives, and international organizations. Collections
against this receivable are realized when USAID requests a transfer of funds from USDA to
cover incurred expenses.



All other entity accounts receivable consist of amounts managed by missions or
USAID/Washington. These receivables consist of non-program related receivables such as
overdue advances, unrecovered advances, audit findings, and any interest related to these
types of receivables. A 100 percent allowance for uncollectible amounts is estimated for
accounts receivable due from the public which are more that one year past due. Accounts
receivable from missions are collected and recorded to the respective appropriation.


Interest receivable is calculated separately and there is no interest included in the accounts
receivable listed above.




                                                                                                 67
                                                                         Appendix IV


USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 4. ADVANCES AND PREPAYMENTS (In Thousands)

Advances and Prepayments as of September 30, 2004 and 2003 consisted of the following:

                                                              2004          2003
Intragovernmental

                 Advances to
                    Federal Agencies                           $30,920      $32,998
Total Intragovernmental                                         30,920       32,998




                 Advances to Contractors/                      487,441      290,433
                    Grantees
                 Travel Advances                                 2,480        1,763
                 Advances to Host Country                       46,620       38,785
                    Governments
                    and Institutions

                 Prepayments                                    11,108        5,660
                 Advances, Other                                12,037       13,425

Total Advances and Prepayments                               $590,606      $383,065




                                                                                         68
                                                                            Appendix IV

USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 5. CASH AND OTHER MONETARY ASSETS (In Thousands)


Cash and Other Monetary Assets as of September 30, 2004 and 2003 are as follows:

Cash and Other Monetary Assets                                     2004        2003
            Imprest Fund- Headquarters                               $280         $140
            UE and Micro and Small                                     50           50
               Enterprise Fund Cash w/Fiscal Agent
            Foreign Currencies                                    256,871      240,222
Total Cash and Other Monetary Assets                             $257,201     $240,412




USAID has imprest funds in various overseas locations. These funds are provided by the
Department of State overseas U.S. Disbursing Officers to which USAID is liable for any
shortages. USAID’s cummulative balance of the Department of State provided imprest
funds was $4.6 million in FY 2004 and $4.9 million in FY 2003. These imprest funds are
not included in USAID’s Balance Sheet.

Foreign Currencies are related to Foreign Currency Trust Funds and this amounted to
$256.9 million in FY 2004 and $240.2 million in FY 2003. USAID does not have any non-
entity cash or other monetary assets.




                                                                                         69
                                                                                                 Appendix IV


USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands)

USAID operates the following loan and/or loan guarantee programs:

      Direct Loan Program (Direct Loan)
      Urban and Environmental Program (UE)
      Micro and Small Enterprise Development Program (MSED)
      Ukraine Export Insurance Credit Program (Ukraine)
      Israel Loan Guarantee Program (Israel Loan)
      Development Credit Authority Program (DCA)


Direct loans resulting from obligations made prior to FY 1992 are reported net of allowance for estimated uncollectible
loans. Estimated losses from defaults on loan guarantees resulting from obligations made prior to FY 1992 are reported
as a liability.


The Credit Reform Act of 1990 prescribes an alternative method of accounting for direct loans and guarantees
resulting from obligations made after FY 1991. Subsidy cost, which is the net present value of the cash flows (i.e.
interest rates, interest supplements, estimated defaults, fees, and other cash flows) associated with direct loans and
guarantees, is required by the Act to be recognized as an expense in the year in which the direct loan or guarantee is
disbursed. Subsidy cost is calculated by agency program offices prior to obligation using a model prescribed by the
Office of Management and Budget (OMB). Subsidy relating to existing loans and guarantees is generally required to
be reestimated on an annual basis to adjust for changes in risk and interest rate assumptions. Direct loans are reported
net of an allowance for this subsidy cost (allowance for subsidy). The subsidy costs associated with loan guarantees are
reported as loan guarantee liability.

An analysis of loans receivable, loan guarantees, liability for loan guarantees, and the nature and amounts of the
subsidy costs associated with the loans and loan guarantees are provided in the following sections.



The following net loan receivable amounts are not the same as the proceeds that USAID would expect to receive from
selling its loans. Actual proceeds may be higher or lower depending on the borrower and the status of the loan.



      Summary of Loans Receivables, Net                                                           2004           2003

      Net Direct Loans Obligated Prior to FY 1992 (Allowance for Loss Method)                $    5,780,368 $ 5,334,382
      Net Direct Loans Obligated After FY 1991 (Present Value Method)                                32,248       7,829
      Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method)               295,636     354,386
      Total Loans Receivable, Net as reported on the Balance Sheet                           $    6,108,252 $ 5,696,597




                                                                                                                        70
                                                                                                          Appendix IV

USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued

Direct Loans

Direct Loans Obligated Prior to FY 1992 (Allowance for Loss Method)
as of September 30, 2004:
                                                                                          Allowance    Value of Assets
                                                 Loans Receivables       Interest            For         Related to
                      Loan Programs                    Gross            Receivable       Loan Losses    Direct loans

       Direct Loans                              $        7,748,797 $        296,481 $      2,264,834 $       5,780,443
       MSED                                                     677               90              842               (75)
                          Total                  $        7,749,473 $        296,571 $      2,265,677 $       5,780,368


Direct Loans Obligated Prior to FY 1992 (Allowance for Loss Method)
as of September 30, 2003:
                                                                                          Allowance    Value of Assets
                                                 Loans Receivables       Interest            For         Related to
                      Loan Programs                    Gross            Receivable       Loan Losses    Direct loans

       Direct Loans                              $        8,272,378 $        322,098 $      3,260,015 $       5,334,461
       MSED                                                   1,360               90            1,529               (79)
                          Total                  $        8,273,738 $        322,188 $      3,261,544 $       5,334,382




Direct Loans Obligated After FY 1991:
as of September 30, 2004:                                                              Allowance       Value of Assets
                                                                                       for Subsidy
                                                 Loans Receivables       Interest          Cost            Related to
                      Loan Programs                    Gross            Receivable   (Present Value)      Direct loans

       Direct Loans                              $         259,542 $           9,774 $       237,215 $           32,101
       MSED                                                    150                24              27                148
                          Total                  $         259,693 $           9,798 $       237,242 $           32,248


Direct Loans Obligated After FY 1991
as of September 30, 2003:                                                              Allowance       Value of Assets
                                                                                       for Subsidy
                                                 Loans Receivables       Interest          Cost            Related to
                      Loan Programs                    Gross            Receivable   (Present Value)      Direct loans

       Direct Loans                              $         216,063 $           7,413 $       213,993 $             9,483
       MSED                                                   (908)              133             879              (1,654)
                          Total                  $         215,155 $           7,546 $       214,872 $             7,829




                                                                                                                            71
                                                                                                                  Appendix IV

USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued

Total Amount of Direct Loans Disbursed

                 Direct Loan Programs                 FY 2004               FY 2003

      Direct Loans                              $         8,008,339 $          8,488,798
      MSED                                                      827                  452
                        Total                   $         8,009,166 $          8,489,250



Subsidy Expense for Direct Loans by Program and Component:



      Modifications and Reestimates (FY 2004)

                                                      Total               Interest Rate         Technical          Total
                 Direct Loan Programs               Modifications          Reestimates          Reestimates      Reestimates

      MSED                                      $                   - $                   - $           (29) $             (29)
                        Total                   $                   - $                   - $           (29) $             (29)


      Modifications and Reestimates (FY 2003)

                                                      Total               Interest Rate         Technical          Total
                 Direct Loan Programs               Modifications          Reestimates          Reestimates      Reestimates

      MSED                                      $               -     $               (49) $           (169) $            (218)
                        Total                   $               -     $               (49) $           (169) $            (218)




      Total Direct Loan Subsidy Expense

                 Direct Loan Programs                 FY 2004               FY 2003

      MSED                                      $               (29) $              (218)
      Direct Loans                                                                     -
                        Total                   $               (29) $              (218)




                                                                                                                                  72
                                                                                                        Appendix IV

USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued

   Schedule for Reconciling Subsidy Cost Allowance Balances
   (Post-1991 Direct Loans)                                                                FY 2004

                                                                         Direct Loan       MSED             Total
   Beginning Balance, Changes, and Ending Balance
   Beginning balance of the subsidy cost allowance                   $         213,993 $          879 $        214,872
   Add: subsidy expense for direct loans disbursed during
   the reporting years by component:
        (a) Interest rate differential costs
        (b) Default costs (net of recoveries)
        (c) Fees and other collections
        (d) Other subsidy costs
   Total of the above subsidy expense components
   Adjustments:
        (a) Loan modifications                                       $                 -                $            -
        (b) Fees received
        (c) Foreclosed property acquired
        (d) Loans written off                                                        -                               -
        (e) Subsidy allowance amortization                                      10,586          (717)            9,869
        (f) Other                                                               12,637          (107)           12,530
   Ending balance of the subsidy cost allowance before reestimates   $         237,215 $          55 $         237,271
   Add or subtract subsidy reestimates by component:
        (a) Interest rate reestimate
        (b) Technical/default reestimate                                                          (29)             (29)
   Total of the above reestimate components                                                       (29)             (29)
   Ending balance of the subsidy cost allowance                      $         237,215 $           27 $        237,242




   Schedule for Reconciling Subsidy Cost Allowance Balances                                FY 2003
   (Post-1991 Direct Loans)
                                                                         Direct Loan       MSED             Total
   Beginning Balance, Changes, and Ending Balance
   Beginning balance of the subsidy cost allowance                   $         186,673 $          468 $        187,141
   Add: subsidy expense for direct loans disbursed during
   the reporting years by component:
        (a) Interest rate differential costs
        (b) Default costs (net of recoveries)
        (c) Fees and other collections
        (d) Other subsidy costs
   Total of the above subsidy expense components
   Adjustments:
        (a) Loan modifications                                       $          25,654                  $       25,654
        (b) Fees received
        (c) Foreclosed property acquired
        (d) Loans written off                                                        -
        (e) Subsidy allowance amortization                                       3,356            630            3,987
        (f) Other                                                               (1,690)                         (1,690)
   Ending balance of the subsidy cost allowance before reestimates   $         213,993 $       1,098 $         215,091
   Add or subtract subsidy reestimates by component:
        (a) Interest rate reestimate                                                             (49)              (49)
        (b) Technical/default reestimate                                                        (169)             (169)
   Total of the above reestimate components                                                     (219)             (219)
   Ending balance of the subsidy cost allowance                      $         213,993 $         879 $         214,872




                                                                                                                     73
                                                                                                               Appendix IV

USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued

Defaulted Guaranteed Loans

Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method): FY 2004
                                                                                                               Value of
                                                       Defaulted                                             Assets Related
                                                      Guaranteed                                Allowance     to Defaulted
                                                    Loans Receivable,       Interest            For Loan    Guaranteed Loans
               Loan Guarantee Programs                   Gross             Receivable            Losses     Receivable, Net

      UE                                           $          452,432 $              22,517 $      179,312 $        295,636
                         Total                     $          452,432 $              22,517 $      179,312 $        295,636


Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method): FY 2003
                                                                                                               Value of
                                                       Defaulted                                             Assets Related
                                                      Guaranteed                                Allowance     to Defaulted
                                                    Loans Receivable,       Interest            For Loan    Guaranteed Loans
               Loan Guarantee Programs                   Gross             Receivable            Losses     Receivable, Net

      UE                                           $          514,611 $              28,149 $      188,374 $        354,386
                         Total                     $          514,611 $              28,149 $      188,374 $        354,386




Defaulted Guaranteed Loans from Post-1991 Guarantees

      In FY 2004, the UE Program experienced $4.4 million in defaults on payments.

      In FY 2003, the UE Program experienced $7.1 million in defaults on payments.



Guaranteed Loans Outstanding:


      Guaranteed Loans Outstanding (FY 2004):
                                                     Outstanding           Amount of
                                                        Principal,         Outstanding
                                                    Guaranteed Loans,       Principal
               Loan Guarantee Programs                 Face Value          Guaranteed

      UE                                           $        1,832,755 $        1,832,755
      MSED                                                     76,400             38,200
      Israel                                               12,322,417         12,322,417
      DCA                                                     789,799            341,500
                         Total                     $       15,021,371 $       14,534,872




                                                                                                                               74
                                                                       Appendix IV

USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN
GUARANTEES (In Thousands) - Continued

          Guaranteed Loans Outstanding (FY 2003):
                                  Outstanding         Amount of
                                    Principal,        Outstanding
                                Guaranteed Loans,      Principal
         Loan Guarantee Program    Face Value         Guaranteed

          UE                   $        1,954,929 $        1,954,929
          MSED                             95,542             48,492
          Israel                       10,789,083         10,789,083
          DCA                             549,631            235,866
          Total                $       13,389,184 $       13,028,369




          New Guaranteed Loans Disbursed (FY 2004):
                                 Outstanding          Amount of
                                    Principal,        Outstanding
                                Guaranteed Loans,      Principal
         Loan Guarantee Program    Face Value         Guaranteed

          UE                   $                - $                -
          MSED                              5,000              2,500
          DCA                             250,233            109,417
          Israel                        3,350,000          3,350,000
                   Total       $        3,605,233 $        3,461,917




          New Guaranteed Loans Disbursed (FY 2003):
                                 Outstanding          Amount of
                                    Principal,        Outstanding
                                Guaranteed Loans,      Principal
         Loan Guarantee Program    Face Value         Guaranteed

          UE                   $                - $                -
          MSED                                100                 50
          DCA                             267,446            133,723
                   Total       $          267,546 $          133,773




                                                                                75
                                                                                                Appendix IV

USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN
GUARANTEES (In Thousands) - Continued
Liability for Loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees)
as of September 30, 2004:
                                                    Liabilities for
                                                       Losses on        Liabilities for    Total
                                                       Pre-1992        Loan Guarantees    Liabilities
                                                      Guarantees,        for Post-1991       for
                                                   Estimated Future        Guarantees,      Loan
                 Loan Guarantee Programs            Default Claims        Present Value   Guarantees

       UE                                         $          242,171 $        103,788 $       345,959

       MSED                                                        -            (3,902)         (3,902)

       Israel                                                      -          700,855         700,855

       DCA                                                         -           (2,975)         (2,975)
                         Total                    $          242,171 $        797,766 $     1,039,937




Liability for Loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees)
as of September 30, 2003:
                                                    Liabilities for
                                                       Losses on        Liabilities for    Total
                                                       Pre-1992        Loan Guarantees    Liabilities
                                                      Guarantees,        for Post-1991       for
                                                   Estimated Future        Guarantees,      Loan
                 Loan Guarantee Programs            Default Claims        Present Value   Guarantees

       UE                                         $          311,383 $        175,521 $       486,904

       MSED                                                        -              265             265

       Israel                                                      -          673,261         673,261

       DCA                                                         -           (1,015)         (1,015)
                         Total                    $          311,383 $        848,032 $     1,159,414




                                                                                                              76
                                                                                                                     Appendix IV

NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN
GUARANTEES (In Thousands) - Continued

Subsidy Expense for Loan Guarantees by Program and Component:

      Subsidy Expense for New Loan Guarantees (FY 2004):


                                                  Interest                                   Fees and
            Loan Guarantee Programs              Supplements             Defaults        Other Collections         Other             Total

      DCA                                  $                     - $              993 $                    - $                 - $          993
      MSED                                                       -              1,466                      -                   -          1,466
                     Total                 $                     - $            2,459 $                    - $                 - $        2,459




      Subsidy Expense for New Loan Guarantees (FY 2003):


                                                  Interest                                   Fees and
            Loan Guarantee Programs              Supplements             Defaults        Other Collections         Other             Total

      DCA                                  $                     - $            2,239 $                    - $                 - $        2,239
      MSED                                                       -              3,413                      -                   -          3,413
                     Total                 $                     - $            5,652 $                    - $                 - $        5,652




      Modifications and Reestimates (FY 2004):

                                                    Total              Interest Rate          Technical             Total
            Loan Guarantee Programs              Modifications         Reestimates           Reestimates         Reestimates

      UE                                   $                     - $                   - $           2,194 $               2,194
      MSED                                                                                             610                   610
      DCA                                                        -                     -                64                    64
                     Total                 $                     - $                   - $           2,868 $               2,868


      Modifications and Reestimates (FY 2003):

                                                    Total              Interest Rate          Technical             Total
            Loan Guarantee Programs              Modifications         Reestimates           Reestimates         Reestimates

      UE                                   $                     - $                   - $          48,211 $            48,211
      MSED                                                       -                     -             4,163               4,163
                     Total                 $                     - $                   - $          52,374 $            52,374




                                                                                                                                     77
                                                                                                                        Appendix IV

USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued

       Total Loan Guarantee Subsidy Expense:


                  Loan Guarantee Programs                     FY 2004              FY 2003

       DCA                                             $              1,057 $             2,239
       UE                                                             2,194              48,211
       MSED                                                           2,076               7,576
                            Total                      $              5,327 $            58,026




Subsidy Rates for Loan Guarantees by Program and Component:

       Budget Subsidy Rates for Loan Guarantees for the Current Year's Cohorts:
                                                                                                     Fees and
                                                               Interest                                 Other
                  Loan Guarantee Programs                  Supplements (%)        Defaults (%)     Collections (%)     Other (%)         Total (%)

       DCA                                                                   -            3.71%                  -                 -          3.71%
       MSED                                                                  -            9.61%                  -                 -          9.61%



Schedule for Reconciling Loan Guarantee Liability Balances
(Post-1991 Loan Guarantees)                                                                           FY 2004

                                                                DCA                 MSED                UE               Israel            Total
        Beginning Balance, Changes, and Ending Balance
Beginning balance of the loan guarantee liability        $            (1,014) $              264 $       175,520 $          673,262 $       848,032
Add: subsidy expense for guaranteed loans disbursed
        reporting years by component:
        (a) Interest supplement costs
        (b) Default costs (net of recoveries)                                -                                   -                                   -
        (c) Fees and other collections
        (d) Other subsidy costs                                         993               1,466                  -                            2,459
Total of the above subsidy expense components            $              993 $             1,466 $                - $               - $        2,459
Adjustments:
        (a) Loan guarantee modifications
        (b) Fees received                                                                                    2,468            88,200         90,668
        (c) Interest supplements paid                                                                                                             -
        (d) Foreclosed property and loans acquired                                                                                                -
        (e) Claim payments to lenders                                                         -            (4,380)                           (4,380)
        (f) Interest accumulation on the liability balance                                    -             3,528             55,987         59,514
        (g) Other                                                       (765)            (3,522)          (71,514)            19,512        (56,290)
Ending balance of the loan guarantee liability
before reestimates                                       $              (787) $          (1,792) $       105,621 $          836,960 $       940,003
Add or subtract subsidy reestimates by component:
        (a) Interest rate reestimate                                       -                  -                -                                  -
        (b) Technical/default reestimate                              (2,188)            (2,111)          (1,834)          (136,105)       (142,237)
        Total of the above reestimate components         $            (2,188) $          (2,111) $        (1,834) $        (136,105) $     (142,237)
Ending balance of the loan guarantee liability           $            (2,975) $          (3,902) $       103,788 $          700,855 $       797,766




                                                                                                                                                         78
                                                                                                                   Appendix IV

USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued

Schedule for Reconciling Loan Guarantee Liability Balances
(Post-1991 Loan Guarantees)                                                                       FY 2003

                                                              DCA                MSED               UE              Israel             Total
        Beginning Balance, Changes, and Ending Balance
Beginning balance of the loan guarantee liability        $          (2,484) $           (431) $      58,315 $          665,267 $        720,669
Add: subsidy expense for guaranteed loans disbursed
        reporting years by component:
        (a) Interest supplement costs
        (b) Default costs (net of recoveries)                             -                                  0                                 -
        (c) Fees and other collections
        (d) Other subsidy costs                                     2,239             3,413                  -                -           5,653
Total of the above subsidy expense components            $          2,239 $           3,413 $                - $              - $         5,653
Adjustments:
        (a) Loan guarantee modifications
        (b) Fees received                                                                                7,464         117,715          125,179
        (c) Interest supplements paid                                                                                                         -
        (d) Foreclosed property and loans acquired                                                                                            -
        (e) Claim payments to lenders                                                 (2,318)        (7,077)                             (9,395)
        (f) Interest accumulation on the liability balance                                 -          4,693              44,736          49,429
        (g) Other                                                       40            (2,595)        63,914                              61,359
Ending balance of the loan guarantee liability
before reestimates                                       $             (205) $        (1,931) $     127,310 $          827,719 $        952,893
Add or subtract subsidy reestimates by component:
        (a) Interest rate reestimate                                     -                -               -                                   -
        (b) Technical/default reestimate                              (811)           2,196          48,211           (154,456)        (104,861)
        Total of the above reestimate components         $            (810) $         2,196 $        48,211 $         (154,456) $      (104,861)
Ending balance of the loan guarantee liability           $          (1,014) $           264 $       175,521 $          673,262 $        848,032




Administrative Expense


       Loan Programs                                         FY 2004             FY 2003

       DCA                                             $            8,862 $           8,155
       UE                                                             594               448
       MSED                                                           161               936
                            Total                      $            9,617 $           9,539




                                                                                                                                  79
                                                                                                  Appendix IV


USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 6. LOANS RECEIVABLE AND LIABILITIES FOR LOAN GUARANTEES
(In Thousands) - Continued
Other Information


    1 Allowance for Loss for Liquidating account (pre-Credit Reform Act) receivables have been calculated in
      accordance with OMB guidance using a present value method which assigns risk ratings to receivables based
      upon the country of debtor. Thirteen countries are in violation of Section 620q of the Foreign Assistance Act
      (FAA), owing $37.3 million that is more than six months delinquent. Twelve countries are in violation of the
      Brooke-Alexander Amendment to the Foreign Operations Export Financing and Related Programs
      Appropriations Act, owing $388 million that is more than one year delinquent. Outstanding direct loans
      receivable for countries in violation of Section 620q totaled $27.6 million. Outstanding direct loans receivable
      for countries in violation of the Brooke Amendment totaled $372 million.


    2 The MSED Liquidating Account general ledger has a loan receivable balance of $689 thousand. This includes
      two loans pending closure. These loans are being carried at 100% bad debt allowance.

    3
        The Ukraine program guarantees have expired, and the Ukraine Financing Account was closed out in FY 2002.
    4 For footnote presentation purposes, in the table "Direct Loans Obligated Prior to FY 1992 as of September 30,
      2003", the Loans Receivable Gross amount for FY 2003 was decreased by $357 thousand in order to correct a
      footnote error that existed last year.




                                                                                                                   80
                                                                                Appendix IV


USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 7. INVENTORY AND RELATED PROPERTY (In Thousands)

USAID's Inventory and Related Property is comprised of Operating Materials and Supplies.
Operating Materials and Supplies as of September 30, 2004 and 2003 are as follows:

                                                                   2004      2003
Items Held for Use

          Office Supplies                                         $7,212     $6,937

Items Held in Reserve for Future Use

          Disaster assistance materials and supplies               7,986      7,120
          Birth control supplies                                  20,566      9,970

Total                                                            $35,764 $24,027


Operating Materials and Supplies are valued at historical cost and considered not held for sale.




                                                                                           81
                                                                               Appendix IV


USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 8. GENERAL PROPERTY, PLANT AND EQUIPMENT, NET (In Thousands)

The components of PP&E as of September 30, 2004 are as follows:
                                                                    Accumulated      Net Book
                                         Useful Life      Cost      Depreciation      Value
Classes of Fixed Assets
      Equipment                          3 to 5 years    $56,471        ($25,732)       $30,740
      Buildings, Improvements,             20 years       53,851         (24,263)        29,588
        & Renovations
      Land and Land Rights                    N/A           4,181            -            4,181
      Assets Under Capital Lease                            6,872         (1,423)         5,449
      Construction in Progress               N/A              570            -              570
      Internal Use Software              3 to 5 years      20,328         (8,901)        11,427

                 Total                                  $142,272        ($60,317)       $81,954


                                                                    Accumulated Net Book
                                        Useful Life Cost            Depreciation Value
Classes of Fixed Assets
      Equipment                         3 to 5 years     $42,171        ($25,004)       $17,167
      Buildings, Improvements,          20 years          52,292         (21,265)        31,027
        & Renovations
      Land and Land Rights              N/A                 4,181            -            4,181
      Assets Under Capital Lease                            5,311         (1,117)         4,194
      Construction in Progress          N/A                   570            -              570
      Internal Use Software             3 to 5 years       12,248         (5,054)         7,194

                 Total                                  $116,773        ($52,440)       $64,333

USAID PP&E includes assets located in Washington, D.C. offices and overseas field missions.

Equipment consists primarily of electric generators, ADP hardware, vehicles and copiers located
at the overseas field missions.


Structures and Facilities include USAID owned office buildings and residences at foreign
missions, including the land on which these structures reside. These structures are used and
maintained by the field missions. USAID does not separately report the cost of the building and
the land on which the building resides.

Land consists of property owned by USAID in foreign countries. Usually the land is purchased
with the intention of constructing an office building at the site.

                                                                                                  82
                                                                             Appendix IV


USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 9. LEASES (In Thousands)

Leases as of September 30, 2004 and 2003 consisted of the following:
Entity as Lessee:
    Capital Leases:                                                 2004             2003
      Summary of Assets Under Capital Lease:
              Buildings                                         $       6,872 $         5,311
              Accumulated Depreciation                          $       1,423 $         1,117

     Future Payments Due:

               Fiscal Year                                       Future Costs    Future Costs
                  2004                                                      -            912
                  2005                                                    785            426
                  2006                                                    471            222
                  2007                                                    431            192
                  2008                                                    192               -
                  2009                                                    164                    -
             After 5 Years                                                   -              -
     Net Capital Lease Liability                                        2,043           1,752

     Lease Liabilities Covered by Budgetary Resources                   2,043           1,752
     Lease Liabilities Not Covered by Budgetary Resources                   -               -

The capital lease liability is reported on USAID's Balance Sheet under Other Liabilities.

    Operating Leases:                                               2004             2003

     Future Payments Due:

               Fiscal Year                                       Future Costs    Future Costs
                  2004                                                      -          72,452
                  2005                                                 76,968          70,968
                  2006                                                 32,327          68,755
                  2007                                                 28,292          68,022
                  2008                                                 24,970          67,496
                  2009                                                 18,889               -
              After 5 Years                                            21,574        344,031
              Total Future Lease Payments                            203,021         691,724




                                                                                            83
                                                                              Appendix IV


USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 9. LEASES (In Thousands) - Continued

The lease of the Ronald Reagan Building in Washington D.C., USAID’s headquarters is scheduled to
expire September 2005. Future lease payments beyond September 2005 were not available at the of this
reporting and are not included. This building is leased by the General Services Administration (GSA).
USAID is charged rent intended to approximate commercial rental rates. Lease payments for FY 2004
and 2003 amounted to $39 million and $36 million respectively.




                                                                                                   84
                                                                                   Appendix IV


USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 10. ACCOUNTS PAYABLE (In Thousands)

The Accounts Payable covered by budgetary resources as of September 30, 2004 and 2003
consisted of the following:

                                                                 2004               2003
Intragovernmental

           Accounts Payable                                        $29,523          $27,299
           Disbursements in Transit                                      -              -
Total Intragovernmental                                             29,523           27,299


          Accounts Payable                                       1,951,468         1,842,778
          Disbursements in Transit                                   9,010               -
                                                                 1,960,478         1,842,778

Total Accounts Payable                                          $1,990,001        $1,870,077


Intragovernmental Accounts Payable are those payable to other federal agencies and consist mainly
of unliquidated obligation balances related to interagency agreements between USAID and other
federal agencies.

All other Accounts Payable represent liabilities to other non-federal entities.




                                                                                               85
                                                                                Appendix IV


USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 11. DEBT (In Thousands)

USAID Intragovernmental debt as of September 30, 2004 and 2003 consisted of the following
borrowings from Treasury for post-1991 loan programs, which is classified as other debt:

                               2003                     2003                     2004
                             Beginning      Net        Ending        Net        Ending
                              Balance    Borrowing     Balance    Borrowing     Balance
Urban & Environmental       $       -   $       -    $       -   $       -    $       -
Direct Loan                      15,560      62,421       77,981      33,100      111,081
MSED                              1,184            -       1,184      (1,184)         -
Total Debt                  $    16,744 $    62,421 $     79,165 $    31,916 $    111,081

Pursuant to the Credit Reform Act of 1990, agencies with credit programs have permanent indefinite
authority to borrow funds from the Treasury. These funds are used to disburse new direct loans to the
public and, in certain situations, to cover credit reform program costs. Liquidating (pre-1992) accounts
have permanent indefinite borrowing authority to be used to cover program costs when they exceed
account resources. UE Program debt includes amounts borrowed before the effective date of the Credit
Reform Act of 1990.

The above disclosed debt is principal payable to Treasury, which represents financing account
borrowings from the Treasury under the Credit Reform Act. In addition, there is net liquidating
account equity in the amount of $6.0 billion, which under the Credit Reform Act is required to be
recorded as Due to Treasury. Both of these accounts are used exclusively for credit reform activity.
All debt shown is intragovernmental debt.




                                                                                                  86
                                                                               Appendix IV


USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 12. OTHER LIABILITIES (In Thousands)

As of September 30, 2004 and 2003 Other Liabilities consisted of the following:

Intragovernmental                                                       2004           2003

           Unfunded FECA Liability                                        9,529          6,417
           Credit Program Undisbursed Loans                             207,095              -
           Other                                                        203,950          8,426
Total Intragovernmental                                                 420,574         14,843

          Accrued Funded Payroll/Benefits                                 11,357         6,329
          Deferred Credit                                                  7,405         4,305
          Liability for Deposit Funds and Suspense
          Accounts – Non-Entity                                          19,148         9,176
          Foreign Currency Trust Fund                                   256,871       240,222
          Trust Fund Balances                                            26,459        23,106
          Unfunded Leave                                                 29,891        28,714
          Capital Lease Liability                                         2,589         1,981
          Other                                                              29       197,424
                                                                       $353,750      $511,257

Total Other Liabilities                                                $774,324      $526,100


All liabilities are current. Intragovernmental Liabilities represent amounts due to other
federal agencies. All remaining Other Liabilities are liabilities to non-federal entities.

The desparity between FY 2004 and FY 2003 other intragovernmental liability and those
with the public is due to Federal and NonFederal misclassifications in last years financial
statements.




                                                                                             87
                                                                          Appendix IV


USAID FY 2004 Q4 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 13. ACCRUED UNFUNDED ANNUAL LEAVE AND SEPARATION PAY (In
Thousands)


Accrued unfunded benefits for annual leave and separation pay as of September 30, 2004 and 2003
are:

                                                                  2004       2003
Liabilities Not Covered by Budgetary Resources

                   Accrued Annual Leave                         $29,882     $28,409
                   FSN Separation Pay Liability                       9         305

Total Accrued Unfunded Annual Leave and
Separation Pay                                                  $29,891     $28,714




                                                                                             88
                                                                                          Appendix IV

USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 14. ACCRUED UNFUNDED WORKERS’ COMPENSATION BENEFITS (In Thousands)


The provision for workers’ compensation benefits payable, as of September 30, 2004 and 2003 are as follows:

                                                                               2004          2003
Liabilities Not Covered by Budgetary Resources

         Accrued Unfunded Workers' Compensation                                  $6,985      $6,417
         Future Workers' Compensation Benefits                                   24,523      27,400
Total Accrued Unfunded Workers Compensation Benefits                            $31,508     $33,817


The Federal Employees Compensation Act (FECA) program is administered by the U.S. Department of Labor
(DOL) and provides income and medical cost protection to covered Federal civilian employees who have been
injured on the job or have incurred a work-related occupational disease. Compensation is given to
beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. DOL
initially pays valid FECA claims for all Federal government agencies and seeks reimbursement two fiscal
years later from the Federal agencies employing the claimants.

USAID’s total FECA liability is $31.5 million as of September 30, 2004 and comprises of unpaid FECA
billings for $7.0 million and estimated future FECA costs of $24.5 million.

For FY 2003, USAID’s total FECA liability was $33.8 million and comprised of unpaid FECA billings for
$6.4 million and estimated future FECA costs of $27.4 million.

Estimated future FECA costs are determined by the Department of Labor. This liability is determined using a
paid losses extrapolation method calculated over a 37 year period. This method utilizes historical benefit
payment patterns related to a specific incurred period to predict the ultimate payments related to that period.
These annual benefit payments have been discounted to present value. The interest rate assumptions used for
discounting were 4.883% in year 1 and 5.235% in Year 2 and thereafter.

The decrease of $2.9 million for Future Workers’ Compensation Benefits is shown as a financing source yet to
be provided on the Statement of Financing.




                                                                                                       89
                                                                              Appendix IV


USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 15. COMMITMENTS AND CONTINGENCIES

USAID is involved in certain claims, suits, and complaints that have been filed or are
pending. These matters are in the ordinary course of the Agency’s operations and are not
expected to have a material adverse effect on the Agency’s financial operations.


As disclosed in FY 2003, USAID continues to be involved in a group of cases which dispute
the appropriate indirect cost rates to be charged where contract rates do not match Negotiated
Indirect Cost Rate Agreement (NICRA) rates, however, the likelihood of an unafavorable
outcome to USAID on this case has changed from reasonably possible to remote. The status
of all remaining litigation cases are at a remote designation.




                                                                                                 90
                                                                                  Appendix IV


USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 16. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES (In
Thousands)

Liabilities not covered by budgetary resources as of September 30, 2004 and 2003 are as

                                                                         2004           2003

         Contingent Liabilities for Loan Guarantees                       242,171        311,383
         Accrued Unfunded Annual Leave and Separation Pay                  29,891         28,714
         Accrued Unfunded Workers Compensation Benefits                    31,508         33,817
Total Liabilities not covered by Budgetary Resources                      303,571        373,914
Total Liabilities covered by Budgetary Resources                        9,670,220      8,957,967
Total Liabilities                                                       9,973,791      9,331,882


All liabilities not covered by Budgetary Resources are non-federal liabilities.




                                                                                           91
                                                                                                Appendix IV

USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 17. SCHEDULE OF COST BY RESPONSIBILITY SEGMENTS (In Thousands)

The Consolidated Statement of Net Cost reports the Agency’s gross costs less earned revenues to arrive
at net cost of operations by strategic goals, as of September 30, 2004. To the extent practicable,
presentation of program results by strategic goals is based on the Joint FY 2004-2009 State/USAID
Strategic Plan. For comparative purposes, prior year data have been recast consistent
with the 2004 presentation.

The Schedule of Cost by Responsibility Segment categorizes costs and revenues by strategic
and performance goals and responsibility segments. A responsibility segment is the component that carries
out a mission or major line of activity, and whose managers report directly to top management. The
geographic and technical bureaus of USAID (below) meet the criteria of a responsibility segment.
These bureaus directly support the Agency goals while the remaining bureaus and offices support the operations
of these bureaus. To report the full cost of program outputs, the cost of support bureaus and offices are
allocated to the outputs of the geographic and technical bureaus. Intra-agency eliminations are allocated to goals
to reflect total goals costs.


          FY 2004 Statement of Net Cost Responsibility Segments

             Geographic Bureaus
                   Africa (AFR)
                   Asia and Near East (ANE)
                   Latin America and the Caribbean (LAC)
                   Europe and Eurasia (E&E)

             Technical Bureaus
                    Democary, Conflict, and Humanitarian Assistance (DCHA)
                    Economic Growth, Agriculture, and Trade (EGAT)
                    Global Health (GH)




                                                                                                                     92
                                                                                                                         Appendix IV

                                                         U.S Agency for International Development
                                                        Schedule of Costs by Responsibility Segment
                                                          For the Year Ended September 30, 2004
                                                                      (In Thousands)



                                                                                  Latin
                                                     Asia & Near    Europe &    America &    Global                             Intra-Agency
 Goal                                  Africa           East        Eurasia     Caribbean    Health       DCHA       EGAT       Eliminations        2004
Regional Stability
 Close, strong, and effective U.S.
 ties with allies
      Total Costs                               77         1,039      16,734        2,064             -    55,112       215            (158)         75,083
   Less Earned Revenues                          -            (4)        (62)           -             -      (433)       (2)             64            (437)
   Net Program Costs                            77         1,035      16,672        2,064             -    54,679       213             (94)         74,646
 Existing and emergent regional
 conflicts are contained or resolved                                                                                                                      -
      Total Costs                       32,965           496,507      26,545       11,577             -    12,811           -        (1,218)        579,187
   Less Earned Revenues                    (80)             (556)        (84)        (118)            -      (117)          -           122            (833)
   Net Program Costs                    32,885           495,951      26,461       11,459             -    12,694           -        (1,096)        578,354
Counterterrorism
 Coordinated international
 prevention and response to
 terrorism
      Total Costs                                -        16,325           -            -             -          -          -           (34)         16,291
   Less Earned Revenues                          -             -           -            -             -          -          -             -               -
   Net Program Costs                             -        16,325           -            -             -          -          -           (34)         16,291
 Stable political and economic
 conditions
       Total Costs                               -       113,466           -            -             -          -          -          (238)        113,228
    Less Earned Revenues                         -           (62)          -            -             -          -          -             8             (54)
    Net Program Costs                            -       113,404           -            -             -          -          -          (230)        113,174
International Crime and Drugs
 International trafficking in drugs,
 persons, and other illicit goods
     Total Costs                                 -             -         332       76,914             -          -          -          (162)         77,084
  Less Earned Revenues                           -             -          (2)        (336)            -          -          -            43            (295)
  Net Program Costs                              -             -         330       76,578             -          -          -          (119)         76,789
Democracy and Human Rights

 Develop transparent and
 accountable democratic institutions
      Total Costs                      106,217           375,862     278,387      122,738             -   361,408           -        (2,612)    1,242,000
   Less Earned Revenues                   (215)             (505)       (313)        (439)            -    (2,567)          -           517        (3,522)
   Net Program Costs                   106,002           375,357     278,074      122,299             -   358,841           -        (2,095)    1,238,478
 Universal standards protect human
 rights
      Total Costs                          563             9,649          60         845              -     6,168     21,643            (82)         38,846
   Less Earned Revenues                      -               (31)          -           -              -       (68)      (207)            39            (267)
   Net Program Costs                       563             9,618          60         845              -     6,100     21,436            (43)         38,579
Economic Prosperity and Security
 Enhanced food security and
 agricultural development
      Total Costs                      160,415            30,168      11,465       57,736             -          -   114,050           (784)        373,050
   Less Earned Revenues                   (383)             (113)          7         (472)            -          -    (1,005)           251          (1,715)
   Net Program Costs                   160,032            30,055      11,472       57,264             -          -   113,045           (533)        371,335




                                                                                                                                               93
                                                                                                                  Appendix IV

Economic Prosperity and Security (Continued)
 Increased trade and investment
      Total Costs                        84,422        113,765      33,675     45,681            -          -       535      (583)     277,495
   Less Earned Revenues                    (281)        (1,063)          -       (202)           -          -        (4)      198       (1,352)
   Net Program Costs                     84,141        112,702      33,675     45,479            -          -       531      (385)     276,143
 Institutions, laws, and policies
 foster private sector led growth
      Total Costs                        76,695       2,033,690    270,627     60,715            -     11,308    135,971    (5,433)   2,583,573
   Less Earned Revenues                    (399)         (5,001)     1,045       (486)           -        (88)    (7,247)    1,559      (10,617)
   Net Program Costs                     76,296       2,028,689    271,672     60,229            -     11,220    128,724    (3,874)   2,572,956
 Secure and stable financial and energy markets
       Total Costs                                -     76,237      60,839         57            -          -     17,935     (325)     154,743
   Less Earned Revenues                           -       (214)       (279)        (2)           -          -       (256)      96         (655)
   Net Program Costs                              -     76,023      60,560         55            -          -     17,679     (229)     154,088
Social and Environmental Issues
 Broader access to quality
 education with an emphasis on
 primary school completion
      Total Costs                       167,154        282,509       7,542     70,692            -          -     38,459    (1,188)    565,168
   Less Earned Revenues                    (737)          (837)          7       (532)           -          -       (408)      321      (2,186)
   Net Program Costs                    166,417        281,672       7,549     70,160            -          -     38,051      (867)    562,982
 Improved global health
      Total Costs                       983,203        563,369     149,544    355,830    1,157,586          -          -    (6,735)   3,202,797
   Less Earned Revenues                  (8,174)        (4,536)       (957)    (3,592)      (7,554)         -          -     3,177      (21,636)
   Net Program Costs                    975,029        558,833     148,587    352,238    1,150,032          -          -    (3,558)   3,181,161
 Partnerships, initiatives, and
 implemented international treaties
     Total Costs                         47,614        253,154      71,993     93,757            -          -    145,434    (1,284)    610,668
  Less Earned Revenues                      (29)          (899)       (416)      (724)           -          -    (47,269)    6,317     (43,020)
  Net Program Costs                      47,585        252,255      71,577     93,033            -          -     98,165     5,033     567,648
Humanitarian Response
 Effective protection, assistance,
 and durable solutions for refugees
      Total Costs                          8,400          6,948     31,425     18,144            -    405,008          -     (986)     468,939
   Less Earned Revenues                        -             66        (66)      (190)           -     (3,200)         -      434       (2,956)
   Net Program Costs                       8,400          7,014     31,359     17,954            -    401,808          -     (552)     465,983
 Improved capacity of host
 countries to reduce vulnerabilities
 to disasters
      Total Costs                 8,671                  (2,364)    51,461     78,690            -     13,054     98,862     (521)     247,853
   Less Earned Revenues              (44)                    89       (368)        27            -       (149)   (72,009)   9,277      (63,177)
   Net Program Costs              8,627                  (2,275)    51,093     78,717            -     12,905     26,853    8,756      184,676
Management and Organizational Excellence
 A high performing, well-trained,
 and diverse workforce
      Total Costs                        41,202               -      3,069          -            -          -          -       (93)     44,178
   Less Earned Revenues                    (475)              -         (6)         -            -          -          -        62        (419)
   Net Program Costs                     40,727               -      3,063          -            -          -          -       (31)     43,759




                                                                                                                                       94
                                                                                                               Appendix IV

Management and Organizational Excellence (Continued)
 Customer-oriented, innovative
 delivery of administrative and
 information services
      Total Costs                         708            -           -         -           -         -          -     (1)         707
   Less Earned Revenues                    (6)           -           -         -           -         -          -      1           (5)
   Net Program Costs                      702            -           -         -           -         -          -      -          702
 Modernized, secure, and high
 quality information technology
 management
      Total Costs                        1,357           -           -         -           -         -          -     (3)        1,354
   Less Earned Revenues                      -           -           -         -           -         -          -      -             -
   Net Program Costs                     1,357           -           -         -           -         -          -     (3)        1,354
 Secure, safe, and functional
 facilities serving domestic and
 overseas staff
      Total Costs                            -           -        171          -           -         -          -      -          171
   Less Earned Revenues                      -           -          -          -           -         -          -      -            -
   Net Program Costs                         -           -        171          -           -         -          -      -          171
Public Diplomacy and Political Affairs
 American understanding and
 support for U.S. foreign policy
      Total Costs                          -             -           -         -           -    34,561          -    (72)       34,489
  Less Earned Revenues                     -             -           -         -           -      (202)         -     26          (176)
  Net Program Costs                        -             -           -         -           -    34,359          -    (46)       34,313
 Net Costs of Operations           1,708,840     4,356,658   1,012,375   988,374   1,150,032   892,606    444,697      -    10,553,582




                                                                                                                            95
                                                                                                         Appendix IV

USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 18. TOTAL AND INTRAGOVERNMENTAL COST AND EARNED REVENUE BY BUDGET FUNCTIONAL
CLASSIFICATION (In Thousands)

Total Cost and Earned Revenue by Budget Functional Classification as of September 30, 2004 are as follows:

                    Function Classification                          Gross Cost       Earned Revenue           Net Cost

International Development and Humanitarian Assistance- 151       $      7,977,485 $              (153,316) $     7,824,170
International Security Assistance- 152                                  2,679,334                      (3)       2,679,331
Conduct of Foreign Affairs- 153                                            43,859                       -           43,859
Federal Employee Retirement and Disability- 602                             6,222                       -            6,222
Total                                                            $     10,706,901 $              (153,319) $    10,553,582


Total Cost and Earned Revenue by Budget Functional Classification as of September 30, 2003 are as follows:

                    Function Classification                          Gross Cost       Earned Revenue           Net Cost

International Development and Humanitarian Assistance- 151       $      6,700,489 $              (188,023) $     6,512,466
International Security Assistance- 152                                  3,434,912                       -        3,434,912
Conduct of Foreign Affairs- 153                                            45,200                       -           45,200
Federal Employee Retirement and Disability- 602                               987                       -              987
Total                                                            $     10,181,588 $              (188,023) $     9,993,565


Intragovernmental Cost and Earned Revenue by Budget Functional Classification, as of September 30, 2004 are as follows:


                    Function Classification                          Gross Cost       Earned Revenue           Net Cost

International Development and Humanitarian Assistance- 151       $       532,069 $                131,168 $        400,901
International Security Assistance- 152                                    41,493                        -           41,493
Conduct of Foreign Affairs- 153                                           43,859                        -           43,859
Federal Employee Retirement and Disability- 602                                -                        -                -
Total                                                            $       617,421 $               (131,168) $       486,253

Intragovernmental Cost and Earned Revenue by Budget Functional Classification, as of September 30, 2003 are as follows:

                    Function Classification                          Gross Cost       Earned Revenue           Net Cost

International Development and Humanitarian Assistance- 151       $       496,708 $                (17,452) $       479,256
International Security Assistance- 152                                    28,972                        -           28,972
Conduct of Foreign Affairs- 153                                           45,200                        -           45,200
Federal Employee Retirement and Disability- 602                                -                        -                -
Total                                                            $       570,880 $                (17,452) $       553,428




                                                                                                                             96
                                                                          Appendix IV

USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 19. PRIOR PERIOD ADJUSTMENTS

USAID recorded no prior period adjustments during FY 2004. In FY 2003, a prior adjustment
was made in the amount of $1.7 million to adjust the allowance for subsidy for prior year
amortization of the reestimate interest expense in the Direct Loan Financing fund (Enterprise
for the Americas Initiative Debt Restructuring Financing).




                                                                                      97
                                                                                     Appendix IV

NOTE 20. STATEMENT OF BUDGETARY RESOURCES

A. Apportionment Categories of Obligations Incurred:

                                                                       2004          2003
Category A, Direct                                                 $       39,926 $ 1,371,774
Category B, Direct                                                     11,316,180    8,534,809
Category A, Reimbursable                                                   27,475       10,065
Category B, Reimbursable                                                   24,854      171,039
Total                                                              $   11,408,435 $ 10,087,687


B. Borrowing Authority, End of Period and Terms of
Borrowing Authority Used:

For credit financing activities, borrowing authority for FY 2004
was 31.9 million. For FY 2003 borrowing authority was $62.9
million.

Borrowing Authority is indefinite and authorized under the
Credit Reform Act of 1990 (P.L. 101-508), and is used to
finance obligations during the current year, as needed.

C. Adjustments to Beginning Balance of Budgetary Resources:
 There were no differences for FY 2004 between prior year and
current year beginning balances.


D. Permanent Indefinite Appropriations:

USAID has permanent indefinite appropriations relating to
specific Credit Reform Program and Liquidating
appropriations. USAID is authorized permanent indefinite
authority for Credit Reform Program appropriations for subsidy
reestimates, and Credit Reform Act of 1990.


E. Legal Arrangements Affecting the Use of Unobligated
Balances:
Pursuant to Section 511 of PL 107-115 funds shall remain
available until expended if such funds are initially obligated
before the expiration of their periods of availability. Any
subsequent recoveries (deobligations) of these funds become
unobligated balances that are available for reporogramming by
USAID (subject to OMB approval through the apportionment
process).




                                                                                                   98
                                                                                                                                                                            Appendix IV
USAID FY 2004 FOOTNOTES TO THE FINANCIAL STATEMENTS
NOTE 21. Explanation of the Relationship Between Liabilities Not Covered by Budgetary Resources on the Balance Sheet and the Change in Components Requiring or




Contingent liabilities for Loan Guarantees on the Balance Sheet represent cumulative balances, of which $209 million represent the Credit Subsidy expense reestimates requiring resources in future
periods. Current period changes of $1.2 million represen
Increase in exchange revenue from the Public includes current-period increases in Accrued Unfunded Workers Compensation Benefits with other non-related expenses that require future resources.

Description of Transfers that Appear as a Reconciling Item on the Statement of Financing




Appropriations that are transferred from other Federal Agencies to USAID are not shown on the Statement of Budgetary Resources, but are shown on the Balance Sheet and Statement of Net Costs.
Appropriations that are transferred to other agencies are show



Obligations Incurred, Statement of Budgetary Resources                                                           11,408,435

           Less: Transfers to Other Agencies
                     NRC                                                                     (334,567)
                     Other                                                                     (2,562)             (337,129)

           Add: Transfers from Other Agencies
                     Dept of State                                                            447,345
                     Dept of Agriculture                                                      950,192
                     Executive Office of the President                                        146,020             1,543,557


Obligations Incurred, Statement of Financing                                                                     12,614,863




Offsetting Collections and Recoveries, Statement of Budgetary Resources                                           1,274,282

           Less: Transfers to Other Agencies

                      Dept of State                                                            (18,956)
                      U.S. Treasury Dept                                                          (354)              (19,310)

           Add: Allocations from Other Agencies
                      State                                                                       316
                      Agriculture                                                             186,518
                      Executive Office of the President                                         4,808               191,642

Offsetting Collections and Recoveries, Statement of Financing                                                     1,446,614




                                                                                                                                     99
                                                                                                                                                                                                                                                                               Appendix IV
                                                                                                                                                  U.S Agency for International Development
                                                                                                                                     Required Supplementary Information: Schedule of Budgetary Resources
                                                                                                                                                    For the Year Ended September 30, 2004
                                                                                                                                                                (In Thousands)

                                                        Operating                                                                                 Program
                                                                                                                                                                                                                                                                            Allocations to Other
                                                                                                                                                                                                                                                                                                       Consolidated Total
                                                           1000               1010                    1021                    1035                   1037                   1093                  1095            1096          Credit Financing           Other                 Agencies




Budget Authority                                           670,162                   309,821            1,325,050                  512,900             2,842,200                 430,988            1,824,481      2,336,233                   -                581,715                     238,828            11,072,378
Unobligated Balances - Beginning of Period                  26,071                    92,806              202,891                   40,863             1,071,659                 195,044              144,389            726             981,619                421,762                     189,268             3,367,098
Spending Authority from Offsetting Collections              29,134                         5                3,142                    1,427                     3                       -               18,054              -             218,325                856,732                       2,595             1,129,417
Recoveries of Prior-Year Obligations                        16,317                    14,803               23,355                   14,114                15,355                  17,322               12,963            571               3,955                  9,395                      16,715               144,865
Temporarily Not Available Pursuant to Public Law                                                                                                                                                                                                                                                                        -
Permanently Not Available                                   (3,768)                   (2,729)             (8,213)                    (1,507)             (13,544)                  (3,663)             (10,826)            -              (1,184)            (1,035,168)                        (74)           (1,080,676)

Total Budgetary Resources                                  737,916                   414,706            1,546,225                  567,797             3,915,673                 639,691            1,989,061      2,337,530           1,202,715                834,436                     447,332             14,633,082

Status of Budgetary Resources:

Obligations Incurred                                       667,014                   319,265            1,490,504                  366,628             2,928,428                 494,587            1,750,151      2,203,028             234,102                617,598                     337,130            11,408,435
Unobligated Balances - Available                            69,246                    93,754               42,773                  200,729               983,159                 144,672              238,914        134,502             968,613                216,186                     100,194             3,192,742
Unobligated Balances - Unavailable                           1,656                     1,687               12,948                      440                 4,086                     432                   (4)             -                   -                    652                      10,008                31,905

Total, Status of Budgetary Resources                       737,916                   414,706            1,546,225                  567,797             3,915,673                 639,691            1,989,061      2,337,530           1,202,715                834,436                     447,332            14,633,082

Relationship of Obligations to Outlays:

Obligated Balance, Net, Beginning of Period                160,842                   527,856            2,506,374                  409,634             2,933,916                 565,322            1,996,750         90,230               1,597                 83,600                 1,298,721              10,574,842
Obligated Balance, Transferred, Net                              -                         -                    -                        -                     -                       -                    -              -                   -                      -                         -                       -
Obligated Balance, Net, End of Period                      166,373                   452,415            2,630,507                  379,666             3,105,784                 544,004            2,073,456      1,969,418              11,031                160,905                 1,267,439              12,760,997




Disbursements                                              645,384                   379,903            1,343,018                  382,482             2,741,205                 498,583            1,660,482       323,268              220,712                 530,918                    216,834              8,942,788
Collections                                                (27,460)                       (5)              (3,142)                  (1,427)                   (3)                      -              (18,054)            -             (218,325)              (854,050)                     (2,595)            (1,125,061)
Less: Offsetting Receipts                                        -                         -                    -                        -                     -                       -                    -             -                    -                       -                          -                      -

Net Outlays                                                617,924                   379,899            1,339,876                  381,055             2,741,202                 498,583            1,642,428       323,268                2,387               (323,131)                    214,240              7,817,727



        MAJOR FUNDS                                                                             OTHER FUNDS                                                                                                                    OTHER FUNDS (con't)

          Program Fund                                                                          Operating Funds                                                                                                                 Credit Program Funds

                 1010         Special Assistance Initiatives                                                   1007 Operating Expenses of USAID Inspector General                                                                            0400   MSED Program Fund
                 1021         Development Assistance                                                           1036 Foreign Service Retirement and Disability Fund                                                                           0401   UE Program Fund
                 1035         International Disaster Assistance                                                                                                                                                                              0402   Ukraine Program Fund
                 1037         Economic Support Fund                                              Program Funds                                                                                                                               1264   DCA Program Fund
                 1093         Assistance for the N.I.S. Of The Former Soviet Union                                                                                                                                                           4103   Economic Assistance Loans - Liquidating Fund
                 1095         Child Survival and Disease Programs Funds                                        1012   Sahel Development Program                                                                                              4340   UE Guarantee Liquidating Fund
                 1096         Latin American/Caribbean Disaster Recovery                                       1014   Africa Development Assistance                                                                                          4341   MSED Direct Loan Liquidating Fund
                                                                                                               1023   Food and Nutrition Development Assistance                                                                              5318   Israel Admin Expense Fund
          Operating Fund                                                                                       1024   Population and Planning & Health Dev. Asst.
                                                                                                               1025   Education and Human Resources, Dev. Asst.                                                                 Revolving Funds
                 1000         Operating Expenses of USAID                                                      1027   Transition Initiatives
                                                                                                               1028   Global Fund to Fight HIV / AIDS                                                                                        4175 Property Management Fund
          Credit-Financing Funds                                                                               1038   Central American Reconciliation Assistance                                                                             4513 Working Capital Fund
                                                                                                               1040   Sub-Saharan Africa Disaster Assistance                                                                                 4590 Acquisition of Property, Revolving Fund
                 4119         Israel Guarantee Financing Fund                                                  1500   Demobilization and Transition Fund
                 4137         Direct Loan Financing Fund                                                                                                                                                                       ALLOCATIONS TO OTHER AGENCIES
                 4266         DCA Financing Fund                                                 Trust Funds                                                                                                                             1000 Operating Expenses of USAID
                 4342         MSED Direct Loan Financing Fund                                                                                                                                                                            1010 Special Assistance Initiatives
                 4343         MSED Guarantee Financing Fund                                                    8342 Foreign Natl. Employees Separation Liability Fund                                                                    1014 Africa Development Assistance
                 4344         UE Financing Fund                                                                8502 Tech. Assist. - U.S. Dollars Advance from Foreign                                                                    1021 Development Assistance
                 4345         Ukraine Financing Fund                                                           8824 Gifts and Donations                                                                                                  1027 Transition Initiatives
                                                                                                                                                                                                                                         1032 Peacekeeping Operations




                                                                                                                                                                                                                         100
                                                                                                                                   Appendix IV
                                                  U.S Agency for International Development

                               Required Supplementary Information Intragovernmental Amounts
                                                           as of September 30, 2004




Intragovernmental assets:


                                              Fund Balance with         Accounts              Advances and
                     Agency                       Treasury           Receivable, Net          Prepayments          Totals
     Treasury                                 $       15,859,926     $             -      $                -    $ 15,859,926
     Dept of Agriculture                                     -               804,491                   2,601         807,092
     Dept of Commerce                                        -                     -                     531             531
     Dept of State                                           -                     -                  19,911          19,911
     Other                                                   -               226,677                   7,876         234,554
                       Total                  $       15,859,926     $     1,031,168      $           30,920    $ 16,922,014




Intragovernmental liabilities:

                                                                          Accounts
                     Agency                     Due to Treasury           Payable                 Debt              Other         Totals
     Treasury                                 $         6,033,925    $          5,440     $          111,081    $      37,549   $ 6,187,996
     GSA                                                        -              12,059                      -                -        12,059
     Dept of Agriculture                                        -               3,369                      -                -         3,369
     Dept of Labor                                              -               2,455                      -            7,017         9,472
     Dept of Health and Human Services                          -               6,003                      -                -         6,003
     Other                                                      -                  197                     -         376,008        376,205
                       Total                  $         6,033,925     $        29,523     $          111,081    $    420,574    $ 6,595,104




Intragovernmental earned revenues and related costs;

USAID's intragovernmental earned revenues are not greater than $500 million.   As such, intragovernmental earned revenues and related costs
by trading partner are not required to be reported.




                                                                                                          101
